<html>
<title> - NASA'S SPACE SHUTTLE PROGRAM</title>
<body><pre>[Senate Hearing 108-917]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-917
 
                      NASA'S SPACE SHUTTLE PROGRAM

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 8, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                     U.S. GOVERNMENT PRINTING OFFICE

36-172 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





































       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel



























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 8, 2004................................     1
Statement of Senator Breaux......................................    28
Statement of Senator Brownback...................................     1
Statement of Senator Hutchison...................................    26
Statement of Senator Lott........................................    24
Statement of Senator Nelson......................................     2

                               Witnesses

O'Keefe, Hon. Sean, Administrator, National Aeronautics and Space 

  Administration.................................................     4
    Prepared statement...........................................     8
Stafford, Lieutenant General Thomas P., U.S. Air Force (Retired), 
  Co-Chairman, Return to Flight Task Group; accompanied by Joseph 
  W. Cuzzupoli, Member, Return to Flight Task Group..............    14
    Prepared statement...........................................    16

                                Appendix

McCain, Hon. John, U.S. Senator from Arizona, prepared statement.    41
Response to written questions submitted by Hon. John McCain to:
    Hon. Sean O'Keefe............................................    41
    Lieutenant General Thomas P. Stafford........................    47


                      NASA'S SPACE SHUTTLE PROGRAM

                              ----------                              


                      WEDNESDAY, SEPTEMBER 8, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, 
presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Good morning. I call the hearing to 
order.
    I want to thank the Commerce, Science, and Transportation 
Committee Chairman for holding this hearing on NASA's Space 
Shuttle Program. Chairman McCain will be in, I think, in about 
a half an hour or 45 minutes to chair the hearing. Until that 
time, I'll be chairing it.
    Before I begin, I understand that the recent hurricanes in 
Florida did significant damage to our space facilities there. I 
saw an article in this morning's paper, and I want you to know 
that I share the concerns for NASA's people and programs in 
Florida, and I offer my full support in our efforts to recover 
from the damage, Mr. Administrator, on that, and to all 
Floridians. I think we all watched that storm come in, the 
storm the size of Texas over Florida, and were just amazed at 
the power and the destructive capacity, and we'll want to hear 
about what that has as its impact. But our first and foremost 
concern is for the people, and we hope and pray that they're 
safe and sound and will be able to recover, as well as for all 
Floridians. And we'll hear from Senator Nelson here in a minute 
who can give us more personalized details of what's been taking 
place.
    The Space Shuttle is a magnificent machine, and it's clear 
that the dedicated and talented people at NASA are doing their 
best to return it to flight. I am concerned, though, to be 
sure, about the schedule and the cost of this return, and 
that's what I want to particularly focus on in this hearing 
this morning. I'm confident that, with enough money and time, 
we will succeed, but the more we spend on this legacy system, 
the more we mortgage our future.
    I believe in the Administration's space exploration 
program. I believe space offers enormous opportunity for our 
people. I'm concerned that our economic and military 
competitors around the world are breathing down our neck in 
space. This is one competition we can't afford to lose. Every 
dollar spent on space exploration must be spent extremely 
wisely.
    As the Space Shuttle Return to Flight costs mount and 
schedules become less certain, the time has come to find 
alternatives, I believe, to the Shuttle. As I've said before, 
we are never going to realize the benefits of space without 
full mobilization of all the assets that we have available to 
us as a country, including the private sector. A number of 
private concerns, including some of the Nation's largest 
aerospace firms, have told me they have affordable, near-term 
options to offload some, and perhaps all, of the Space 
Shuttle's launch requirements.
    In previous testimony, NASA said it hasn't considered 
alternatives to the Space Shuttle for completing and 
maintaining the Space Station. Yet recent external studies, 
such as one done by the Planetary Society, suggests that as few 
as 10 to 12 Shuttle flights, and not 30, as the plan now 
stands, could suffice to complete the Space Station if 
alternative means of access are also used.
    For these reasons, I've asked, in concert with my House 
colleagues, for a GAO analysis of these issues. I helped 
commission the Congressional Budget Office to study the issue 
of space exploration costs. They tell me that the President's 
Space Exploration Program is affordable within the money we've 
budgeted, provided we come to grips with an affordable launch 
system. Meanwhile, every day we focus our resources to maintain 
the current Shuttle infrastructure is a day we delay our 
people's exploration and expansion into the solar system.
    This is an important issue. I look forward to hearing 
NASA's information today about the program, because we do want 
to see what it is it's costing us and what the time-frame is 
going to be on Return to Flight on the Space Shuttle, and is 
there a way for us to be able to go to fewer flights and then 
move those resources into Moon, Mars, and beyond in the manned 
space program.
    Senator Brownback. I want to turn the program over to the--
podium over to Senator Bill Nelson. And, again, our condolences 
to all of Florida and all Floridians for Hurricane Frances and, 
as I understand, maybe another one coming through.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Chairman, if I'm a little blunt, you will please 
understand that I have been dealing with hurricanes for the 
last four and a half weeks, and, as reflective of Floridians, 
our patience is wearing thin. Even though there has been a 
magnificent response and lessons learned from Hurricane Andrew, 
where one level of government was not talking to the other 
level of government, those lessons were learned, and the 
response has been very good, but some of the damage that was 
done is illustrative of mistakes that have been made.
    And I specifically want to take this opportunity, while we 
have the Administrator here, with regard to the damage at the 
Kennedy Space Center. As, no doubt, you will share with this 
Committee, at least a thousand panels were lost from the 
Vehicle Assembly Building (VAB). These are large panels, panels 
usually 10x4 feet, in one other section, a major section was 
lost. Why? It's simply because NASA has been robbing Peter to 
pay Paul, because NASA has not had the increases that it has 
needed to do an ambitious space program, and you can't do 
spaceflight on the cheap. And so NASA, in order to try to do 
everything it wants to do, takes away from where? Maintenance 
of facilities. And in the corrosive salt air of an ocean launch 
site, you're going to have degradation of facilities. And I 
think we're beginning to see that. And the VAB is an example.
    And fortunately, no hardware, per the briefing that I had 
from Jim Kennedy, who is the director of the Kennedy Space 
Center--no hardware was harmed, but you've basically got a 
thousand panels off, which means you've got a thousand windows 
open if this next hurricane were to come. And what kind of 
damage would that do to the VAB and our ability to stack the 
spacecraft vertically, which is where that's done--in the VAB? 
But there were more problems.
    Now, fortunately, in the three Orbiter Processing 
Facilities, there was no damage. But the fact is that power 
went out. And in Discovery that's being prepared in OPF number 
three, power went out. Why? Why was there not the generator 
capacity there that would kick in when the power went out? And 
although it does not appear that there was any damage to the 
spacecraft or Discovery's preparation, is this, again, another 
example of robbing Peter to pay Paul over the last decade that 
does not give us the maintenance?
    Now, what we're talking about is nothing new. We've been 
talking about this for years. But it's an allocation of 
resources, and I think it's finally coming home that Florida is 
a place that is threatened by windstorms, and we'd better get 
it right.
    And then there was the question of the building that housed 
major computers as a computer center, that did sustain 
significant damage on the roof. And, again, why is a computer 
nerve center housed in a building that is not constructed to 
withstand hurricane-force winds?
    Now, eerily, the track of Ivan is forecasted to come right 
over Western Cuba. Does that sound similar to a hurricane three 
and a half weeks ago named Charley? And if it takes a jog to 
the right, like Charley did, in Southwest Florida, coming right 
across the State of Florida--and Lord help us that this does 
not occur--but it would be headed straight for the Kennedy 
Space Center.
    In the last one, the winds--Charley--only brushed the north 
end of the Space Center, since it exited at Daytona Beach. But, 
even so, KSC suffered $750,000 worth of damage. So in this $2 
billion that we passed last night that's just for FEMA, that's 
nothing for NASA. And in the $2.5 billion dollars additional 
that I have requested of the President to request for 
Department of Agriculture and FEMA and Department of Defense 
and Department of Commerce, is any of that going to go to NASA? 
I think we'd better make our requests known and get serious 
about our budget for NASA in the future. The space program is 
too important to every American that it be successful, and 
we've got to stop robbing Peter to pay Paul.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you. As I said at the outset, our 
thoughts and prayers go out for the Floridians.
    We have two people on the panel, the Honorable Sean 
O'Keefe, Administrator of NASA, and Lieutenant General Thomas 
P. Stafford, U.S. Air Force (Retired), Co-Chairman of the 
Return to Flight Task Force. Gentlemen, we look forward to both 
your testimony.
    Administrator O'Keefe, let's take your comments and your 
testimony first. Thank you for joining us.

    STATEMENT OF HON. SEAN O'KEEFE, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. O'Keefe. Well, thank you, Mr. Chairman. And Senator 
Nelson, Senator Lott, pleasure to see you, as well.
    And I've got a statement for the record I'll submit and 
just briefly summarize it----
    Senator Brownback. And it'll be put in the record.
    Mr. O'Keefe. Appreciate the opportunity to appear before 
the Committee, along with General Tom Stafford, to discuss our 
efforts to return the Shuttle to flight and raise the bar on 
all of our mission operations.
    Right after the Columbia accident, I certainly had the 
opportunity, in a joint session of this Committee and the House 
Science Committee, to pledge that we would find the cause of 
the Columbia accident, correct the problems we find, and return 
the Shuttles to flight. And we're doing just that.
    I'm pleased to report today about the tangible progress 
we're making toward achieving those milestone-driven Return to 
Flight goals, and we are accomplishing those as we move along 
here.
    It is--all the members of the NASA family, I think, have 
been constantly diligent, which is the minimum price of 
admission for conducting research and exploration on behalf of 
the American public. Throughout NASA, we have had many examples 
of diligence and deliberate action we've taken to improve the 
conditions of all three Shuttle orbiters and to minimize the 
risk associated with flight.
    We've conditionally closed five of the 15 recommendations 
of the Columbia Accident Investigation Board; and the Return to 
Flight Task Group, co-chaired by General Stafford, and his Co-
Chair, as well, Dick Covey, who was the pilot on the Return to 
Flight effort after Challenger, have concurred in those five of 
15 recommendations at this point.
    The Stafford-Covey Task Group are all external experts, 
they are dedicated professionals, and we are incredibly 
grateful to them for all the time and effort they've put into 
assuring that we remain diligent in this particular task. They, 
probably more than any other collection of folks, are looking 
forward to Return to Flight so they can return to their day 
jobs on a regular basis, but they are dedicating a tremendous 
amount of time right now to assure that we have looked at every 
option and that we're selecting the best options as we move 
forward in order to meet the recommendations of the Columbia 
Accident Investigation Board.
    We're making progress on the remaining ten Return to Flight 
recommendations, and hope to close them out by year's end. But, 
again, we'll look at how we track on that and what the response 
is from the Stafford-Covey Task Group.
    Throughout the agency, we're striving to transform the 
culture and the organization so that all employees are 
empowered to speak up on issues impacting mission safety, as 
well as our approach to how we return to flight. In an agency-
wide initiative, the outstanding engineers serving in our 1-
year-old NASA Engineering and Safety Center, located at the 
Langley Research Center, are also providing us many good 
approaches to improving decisionmaking and risk-management 
process and looking at the trend analysis that, I think, was so 
carefully articulated by the Accident Investigation Board, as 
well.
    We're vetting options now to establish the independent 
technical authority to oversee the technical standards and 
requirements. And the board recommended that we develop a plan. 
Our intent is to develop that plan and implement it before 
Return to Flight. And, again, our colleagues on the Stafford-
Covey Task Group are being very diligent about assuring we pick 
the very best option to proceed with that. But we're really 
being more ambitious than even what the Board had recommended 
at that time in order to assure that we get this right.
    We've begun restructuring our engineering functions, with a 
focus on providing rigorous independent oversight of the 
technical work performed by all of our programs. And 
specifically for the Shuttle program, we've expanded the 
responsibility and the authority of the Space Shuttle Systems 
Engineering and Integration Office to improve the internal 
communications and coordination of all the technical issues 
resolved.
    The Space Shuttle program has added the NASA Engineering 
and Safety Center and plans to add the independent technical 
authority to formal boards and the Shuttle Mission Management 
Team to assure broader independent evaluation of critical 
decisions as they're rendered. These are just a few examples of 
the numerous changes that are ongoing throughout the Shuttle 
program, and the agency overall, to strengthen the culture, 
improve how we're organized, to enhance our ability to perform 
the mission while focusing on the imperative that we do it as 
safely as we can.
    Throughout this process, we've regularly informed Congress 
about the Return to Flight activities. There have been six 
revisions to the implementation plan that we first initiated 
back after the Columbia Accident Investigation Board report was 
issued on the 26th of August of last year. And since that time, 
each iteration and update we've released includes not only the 
updated analysis, but also an estimated Return to Flight cost.
    The current cost estimates provided to the Committee in 
late July take into account all currently known potential costs 
and, certainly at this particular juncture, that's what our 
best estimate is of what it's going to take to move ahead. The 
prepared statement goes through that in detail. And, Mr. 
Chairman, as you've alluded, we'll get into that, I think, in 
much greater detail in our discussion here.
    It's possible that this estimate will change. It certainly 
will as we continue to move forward and address new challenges 
as they arise after the first two flights. The estimated cost 
right now of Return to Flight activities for this coming fiscal 
year is $643 million for 2005. Currently, we're projecting $465 
million for the current fiscal year as we close out here in the 
next 3 weeks ahead.
    These estimates reflect factors--let me just quickly move 
through. As a result of our efforts to meet the recommendations 
of the Columbia Accident Investigation Board we've continued to 
identify safety-related issues that require additional work, 
and each of those have been identified in turn. We're 
undertaking major modification on all three of the Shuttle 
orbiters simultaneously. Typically, we do that one at a time 
and heel-toe that process over the course of several years. 
We're doing all three now. Since they are all down and will 
remain in a no-fly status until such time as the Accident 
Investigation Board recommendations are met, we're using that 
time now in order to assure that we've torn down every one of 
the orbiters and reconstructed it to the standards we believe 
are necessary to meet those recommendations.
    We're addressing a number of technical requirements up 
front, resulting in the front-loading of many activities in 
many instances, yet demonstrating, again, the diligence based 
on the experience, as well as, again, the constant expert 
advice we're receiving from the Stafford-Covey Task Group.
    Because of the diligence, we're introducing a higher level 
of engineering and technical rigor in all the safety and 
engineering processes and practices, and many potential flight 
risks have been reevaluated and, in some cases, mitigated. We 
will never eliminate the risk of spaceflight. Never. Our intent 
here is to try to do much better than what we've seen in the 
past and to eliminate as many of the known obstacles toward 
those safety objectives as we can do.
    Across the board, our flight hardware is now subject to a 
greater level of test, tear-down, inspection, repair, and 
certification for flight, and not all of them are going to be 
met for those particular cases. We're doing the best we can in 
order to assure that we've gone through all the major 
modifications for all three of the orbiters simultaneously to 
assure the best condition we can. And all the elements--of 
reassessing the adequacy of industrial processes, safety 
controls, integrated hazard analyses, and flight hardware test 
protocols--all those are being met.
    Along the way, I think, as Senator Nelson referred to, 
we've also had to wrestle with the challenges of acts of 
nature. And, as a consequence, this particular latest example 
of this with Hurricane Frances has been a really challenging 
problem. I think, as the Senator referred to, there are a 
number of cases in which the damage, particularly on the 
Vehicle Assembly Building, or the VAB, has lost the better part 
of a thousand panels. And, you're exactly right on the 
estimates of what's involved there, in terms of how extensive 
that damage is. That is--been a rather extended effort that 
will be required in order to replace that in the time ahead, 
and we're just now in the process of evaluating what will be 
required there.
    We've also lost the Tile Repair Facility and the--for the 
thermal blankets and so forth that are constructed in those 
particular shops. The roofs have caved in, in a couple of those 
cases. And so, as a result, that's going to require some 
readjustment of that workload either at Houston or back at 
Palmdale, one or the other. We'll figure that out here in the 
very short time ahead. And this is the--what's remaining of the 
Tile Repair Facility itself.
    That said, as bad as the damage was--I think Senator Nelson 
got it exactly right--all three of the orbiters--Atlantis, 
Discovery, and Endeavor--went through this particular hurricane 
unscathed. No water damage. The facilities were battened down 
all the way through, as well as all the hardware for the 
International Space Station. That has been preserved, as well. 
So there are a number of different cases that came out of this 
about as well as could be expected, given the ferocity of the 
hurricane-force winds that came through, as well as the water 
damage that was encountered.
    So all things considered, Jim Kennedy and the Kennedy Space 
Center Team did an absolutely splendid job, in my estimation, 
of preparing for the worst, anticipating the worst, and riding 
through what was really a hellacious event that, fortunately, 
we came through it with all the orbiters preserved.
    What this will mean in terms of our current schedule, I 
don't know. We're still assessing that right now, and it's been 
no more than 48 hours past the initial assessment, and we'll 
determine that in very short order. And we're working with our 
friends within the Administration to determine exactly what the 
impact of that will be, and what the consequences should be, 
for the upcoming efforts. That's underway immediately. So we're 
doing the best we can, given the 48-hour time span that has 
already elapsed.
    Let me just summarize a couple of quick points, as well. 
We've provided, again, the six different versions of the 
Implementation Plan for the Space Shuttle Return to Flight and 
Beyond. Each of those are updates of the previous position, 
just to make sure that everybody is aware of exactly where we 
are. And the latest one was issued not more than 10 days ago.
    The words for the title of the plan, Implementation Plan 
for Space Shuttle Return to Flight and Beyond, were carefully 
chosen. With the new Vision for Space Exploration announced by 
the President in January, the Return to Flight of the Space 
Shuttle and the completion of the International Space Station 
are the first major steps in order to accomplish that Vision 
objective. It's a compelling plan for exploration. It will take 
our pioneers and robotic explorers back to the Moon and on with 
Mars and beyond, and the value that we will gain by completion 
of the International Space Station will contribute to that 
particular effort. It is the first step in what the President 
directed us to do.
    In pursuing the Vision on behalf of the American public, 
NASA will explore answers to fundamental questions of 
importance to science and society, develop revolutionary 
technologies and capabilities for the future, while doing our 
best to maintain our stewardship along the way. I think the 
American people are inspired by the current exploration 
activities, which go to the heart of what the Vision is all 
about. The President got it right. The Columbia Accident 
Investigation Board called for a spirit of debate. We got one. 
The President released that on January 14th, and the budget to 
support that has been submitted to the Congress, and we await 
the action on the part of the Congress to support it, as well.
    This very day, NASA is attempting and helping to carry out 
that torch of exploration forward through missions taking place 
in orbit around Saturn, on the surface of Mars, in Earth's 
orbit aboard the International Space Station with Expedition 9. 
And in about 2 hours over the skies of Utah, when we will 
conduct a daring helicopter capture of the Genesis mission 
capsule containing the first solar-wind particles to be 
returned to Earth for study. Hopefully, we will get a report on 
that before hearing's end.
    In summary, we're now focused throughout the agency on the 
painstaking work that it will take in order to return the 
Shuttle to flight operations. We're moving forward with a great 
sense of responsibility and determination. And due to all the 
steps we've taken, we're optimistic that we're on track for 
returning the Space Shuttle to flight next spring. The STS-114 
mission, which is commanded by Air Force Colonel Eileen 
Collins, her second command and her fifth flight, will be our 
next step, following continued construction of the 
International Space Station. And, of course, we'll fly only 
when we're absolutely certain we've taken the necessary steps 
to assure that we've met all the recommendations, again, to our 
satisfaction, which should be the highest bar that will be 
established.
    And, again, Mr. Chairman and members of the Committee, I 
thank you for the opportunity to appear this morning.
    [The prepared statement of Mr. O'Keefe follows:]

   Prepared Statement of Hon. Sean O'Keefe, Administrator, National 
                  Aeronautics and Space Administration
    Mr. Chairman and members of the Committee, thank you for this 
opportunity to appear today to discuss the status of NASA's Space 
Shuttle Return to Flight (RTF) effort. When the President visited NASA 
Headquarters on January 14, 2004, and announced the Vision for Space 
Exploration, he presented a bold and forward thinking vision that is 
affordable and achievable. He stated that the first order of business 
is to safely return the Space Shuttle to flight as soon as practicable, 
so that we can complete assembly of the International Space Station 
(ISS), focus Station research on supporting exploration goals, and 
fulfill the commitments to our International Partners. These are the 
first steps on the journey to fulfill the Vision for Space Exploration.
    As the loss of Columbia and her crew reminded us, working in space 
is inherently risky. The Columbia Accident Investigation Board, ably 
led by Admiral Harold Gehman, recognized the risks associated with 
operating the Space Shuttle and made its recommendations consistent 
with an overriding safety objective. NASA recognizes these risks and is 
working to mitigate them, while moving forward to accomplish our 
missions.
    Today's hearing provides an opportunity to focus on the two key 
elements in our progress to safely return the Space Shuttle to flight: 
(1) our cultural and organizational changes, and (2) our technical 
solutions. The Gehman Report indicated that systemic cultural and 
organizational shortcomings contributed as much to the Columbia 
accident as any technical failure. NASA brought in outside experts to 
conduct an in-depth assessment and to identify areas where we can 
change our culture and organization to improve decision-making, risk 
management, and communications. Recommended changes have been 
progressively implemented, and we are pleased with the progress 
achieved through the efforts of the NASA Team. We understand that 
addressing these elements, along with fixing the technical issues that 
led to the Columbia accident are critical to improving our standards 
and performance.
    Our decision-making and risk management processes have been 
enhanced through the establishment of the NASA Engineering and Safety 
Center (NESC) at Langley Research Center. The NESC's purpose is to 
provide independent technical expertise for engineering, safety, and 
mission assurance to augment the capabilities inherent in NASA's 
programs. In addition, NASA began restructuring its engineering 
functions with particular focus on providing independent oversight of 
the technical work performed by the programs and improving technical 
standards. We are working through options to implement an Independent 
Technical Authority (ITA) for approval of waivers to technical 
standards and requirements. The Board recommendations urged that we 
develop a plan for ITA--we are seeking to implement the plan before 
Return to Flight. Within the Space Shuttle Program Office, NASA 
expanded the responsibility and authority of the Space Shuttle Systems 
Engineering and Integration Office to improve internal communications 
and coordination of technical issue resolution. The Space Shuttle 
program has added the NESC to formal boards and the Mission Management 
Team to assure a broader, independent evaluation of critical decisions. 
These are just a few examples of the numerous changes that are ongoing 
throughout the Space Shuttle program and the agency to strengthen our 
culture, improve how we are organized, and enhance our ability to 
perform our mission while focusing on safety first.
    When we began developing our RTF plan, we understood the technical 
solutions to the challenges we faced would evolve over time. There were 
no predetermined answers coming out of the Board's recommendations, 
little prior experience to guide us, and no easy fixes. We put our best 
engineers on the job and our best managers in key positions to ensure 
that the Shuttle would be as safe as reasonably possible when it flew 
again. We have pursued multiple paths for some of the solutions in 
order to maintain our forward momentum. We have rescheduled the launch 
window several times to reflect achievement of milestones rather than 
have the schedule drive our planning. We have not allowed the budget to 
dictate the answer to any of the safety issues we faced. We have gone 
beyond the scope of the Board's recommendations to make changes and 
improvements to ensure out best efforts. All of this has cost more than 
the original estimate because at that time we could not identify the 
technical solutions needed.
    Shortly after the Board issued its report, we issued NASA's 
Implementation Plan for Space Shuttle Return to Flight and Beyond, in 
September 2003. We announced that we would update the plan regularly to 
reflect on-going development. On August 30, 2004, we issued the latest 
update, the sixth revision of the Plan. Throughout the past year these 
revisions report up-to-date status. This plan details the current tasks 
and cost estimates for RTF activities to safely return the Space 
Shuttle to flight. In addition to providing updates on NASA's progress 
toward RTF, the implementation plan recognizes the importance of RTF as 
the first step toward the long-term goals of exploration outlined in 
the Vision for Space Exploration. The updated implementation plan shows 
that NASA continues to make progress in all efforts to make the Shuttle 
safer. The revised schedule for implementing the Board's 
recommendations demonstrates that NASA has a deliberate approach for 
achieving all necessary milestones required to close each action item.
    We have pursued our RTF plans in a purposeful manner, our progress 
has been steady, and we are optimistic that the launch of Discovery 
will occur during the window of opportunity in March through April next 
year. However, our RTF plans continue to be based on accomplishing 
milestones and are not driven by meeting a specific launch window. 
Consistent with this approach, NASA will comply with all fifteen RTF 
recommendations from the Board prior to launch. The RTF Task Group, 
chaired by former astronauts Richard Covey and Thomas Stafford, is 
charged with assessing the implementation of these recommendations. The 
Task Group, as of July 22, 2004, has conditionally closed five RTF 
recommendations. Our current plan is to close the remaining ten RTF 
recommendations by the end of 2004. The five recommendations that have 
been conditionally closed are:
    Recommendation 3.3-1--Develop and implement a comprehensive 
inspection plan to determine the structural integrity of all Reinforced 
Carbon-Carbon (RCC) system components. This inspection plan should take 
advantage of advanced non-destructive inspection technology. To close 
this recommendation, NASA has cycled all Orbiter RCC Wing Leading Edge 
panels and nose cones through the vendor for inspection and 
confirmation of structural integrity.
    Recommendation 4.2-3--Require that at least two employees attend 
all final closeouts and intertank area hand-spraying procedures. To 
close this recommendation, NASA's procedures have been changed to 
require a minimum of two technicians be present for all final vehicle 
closeout operations, even with completion of critical closeout 
procedures during manufacturing and assembly.
    Recommendation 4.2-5--Kennedy Space Center Quality Assurance and 
United Space Alliance must return to the straightforward, industry-
standard definition of ``Foreign Object Debris,'' and eliminate any 
alternate or statistically deceptive definitions like ``processing 
debris.'' To close this recommendation, NASA has ceased using the term 
``processing debris'' and has changed all work procedures to treat all 
debris at the same high level.
    Recommendation 6.3-2--Modify the Memorandum of Agreement with the 
National Imagery and Mapping Agency [now the National Geospatial-
Intelligence Agency (NGA)] to make the imaging of each Shuttle flight 
while on orbit a standard requirement. To close this recommendation, 
NASA has agreements with NGA and other government agencies to receive 
support using appropriate national assets.
    Recommendation 10.3-1--Develop an interim program of closeout 
photographs for all critical sub-systems that differ from engineering 
drawings. Digitize the closeout photograph system so that images are 
immediately available for on-orbit troubleshooting. NASA has revised 
the vehicle processing procedures to mandate that closeout photography 
be performed and has implemented enhancements to the Still Image 
Management System to allow more efficient distribution of closeout 
photographs to support on-orbit troubleshooting.
    NASA has embraced the Gehman report and is committed to complying 
with all the Board's recommendations, as well as self-initiated ``raise 
the bar'' actions to improve safety that go above and beyond the 
content of the Board's recommendations. In addition to the Board's 
recommendations, the Space Shuttle program is working fifteen self-
imposed actions and directives. Of these ``raise the bar'' initiatives, 
the RTF Task Group has elected to review Space Shuttle Program Action 
3, Contingency Shuttle Crew Support (CSCS). The CSCS capability could, 
in an emergency, sustain a Shuttle crew onboard the ISS for a limited 
time to enable a repair to the orbiter or allow the crew to be returned 
to Earth via a rescue mission. The Space Shuttle and ISS programs have 
made progress in defining and planning for a CSCS capability. The two 
programs have completed analyses that indicate that, for our first two 
flights at a minimum, it is possible to launch a rescue mission during 
the time that the Shuttle crew can be safely sustained on the ISS. 
Other ``raise the bar'' initiatives include review of processes, 
hardware and activities or analyses that we believe will make the 
Shuttle safer. These include analysis and testing to determine critical 
debris sources, improvements to the flight readiness review process, 
removal and refurbishment of the orbiter rudders speed brake actuators, 
radar coverage capabilities and requirements, and hardware processing 
and operations.
    We continue to make significant progress in understanding the 
debris environment and the material characteristics of the orbiter and 
External Tank Thermal Protection System (TPS). As a result, we are able 
to better target critical areas for hardening prior to RTF. Even more 
critical to our ability to return safely to flight, we have made 
significant progress in reducing the foam debris that is shed from the 
External Tank during ascent. Work to develop viable repair techniques 
and materials for the orbiter TPS is under way, and progress has been 
made on repairing acreage tiles and Reinforced Carbon-Carbon cracks.
    As our efforts to return the Space Shuttle to safe flight have 
matured and the required work has been identified, NASA has gained a 
better understanding of the costs associated with this challenging 
endeavor. Along with the tasks required for RTF, we have reinvigorated 
our safety and engineering practices. As a result, we have continued to 
identify safety-related issues that require additional work. Earlier 
cost estimates presented in previous revisions of the Implementation 
Plan could not have included all RTF elements now under consideration. 
Nor did they address additional requirements that might be derived from 
our continuing evaluation of the Board's recommendations, or costs 
incurred by other agency activities in support of RTF. The current cost 
estimate, submitted to the Committee on July 30, takes into account all 
currently known potential costs, except a budget reserve. This estimate 
will also change to address new challenges that may arise after the 
first two flights in 2005.
    NASA's updated estimates for RTF activities are as follows:

        FY 2003--$42 million
        FY 2004--$465 million
        FY 2005--$643 million (includes $309 million remaining ``under 
        review'')

    NASA's updated RTF estimates through FY 2005 are reflected in 
Enclosure 1.
    The updated FY 2003 estimate of $42 million reflects actual 
expenditures and the migration of planned work from FY 2003 into FY 
2004. The updated FY 2004 estimate of $465 million reflects the 
continuing refinement of our RTF plan, better technical definition of 
the work to be accomplished, and better cost estimates for the work. 
Our estimates for the remaining years are based on our experience to 
date, which is still evolving. Through the early part of 2004, the pace 
of NASA's RTF technical efforts accelerated rapidly. We moved from 
planning to execution very quickly, and began to close on some of the 
multiple paths we initiated in late 2003. But there is still a great 
deal of work ahead, and we are still refining our technical solutions 
and our cost estimates. As we do and the content is better defined and 
understood, the budget projections will likely change again. They will 
also change in 2005 as we launch the Space Shuttle and assess the 
information gained by actual flight experience.
    The Columbia experience has moved us to reassess the Space Shuttle 
program in total. As a result, we are introducing a higher level of 
engineering and technical rigor into all of our safety and engineering 
processes and practices. Many potential flight risks have been 
reevaluated and mitigated, resulting in what we believe is a safer 
Shuttle system overall. Across the board, flight hardware is now 
subjected to greater levels of test, tear-down, inspection, repair, and 
recertification for flight, and all elements of the program are 
reassessing the adequacy of industrial processes, safety controls, 
integrated hazard analyses, and flight hardware test protocols.
    When we return to flight, we believe the Space Shuttle will be 
safer, but we will never eliminate the risk. We are confident in our 
ability to maintain a renewed level of safety standard throughout the 
life of the Space Shuttle program. We have the best and brightest in 
NASA and industry working diligently to overcome the challenges of 
returning the Shuttle safely to flight. Although there will most likely 
be additional challenges before Discovery takes flight, the NASA and 
contractor team are confident that the Space Shuttle program can safely 
accomplish its role in the Vision for Space Exploration to complete 
International Space Station assembly. As John Kennedy so eloquently 
said more than forty years ago, ``We choose to go to the Moon in this 
decade and do the other things, not because they are easy, but because 
they are hard.'' We are committed to the safe return to flight--the 
first step toward the renewed NASA mission to explore the universe.
    Thank you again for the opportunity to appear before you today, and 
I look forward to any questions that you may have.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Brownback. Thank you very much, and I look forward 
to some of our discussion.
    General Stafford, thank you very much for joining us. The 
floor is yours.

           STATEMENT OF LIEUTENANT GENERAL THOMAS P. 
       STAFFORD, U.S. AIR FORCE (RETIRED), CO-CHAIRMAN, 
          RETURN TO FLIGHT TASK GROUP; ACCOMPANIED BY 
    JOSEPH W. CUZZUPOLI, MEMBER, RETURN TO FLIGHT TASK GROUP

    General Stafford. Mr. Chairman and members of the 
Committee.
    Senator Brownback. Get one of those microphones a little 
closer to you, if you would.
    General Stafford. Mr. Chairman----
    Senator Brownback. Thank you.
    General Stafford.--and members of the Committee, thank you 
for the opportunity today to appear before you to discuss the 
status of the Return to Flight Task Group's assessment.
    I have a written statement that I'd like to submit, with 
your permission, Mr. Chairman, at this time.
    Senator Brownback. It will be accepted in the record.
    General Stafford. Thank you.
    In July 2003, the NASA Administrator, Mr. O'Keefe, 
chartered a group under the Federal Advisory Committee Act to 
perform an independent assessment of the agency's actions to 
implement the recommendations of the Columbia Accident 
Investigating Board, the CAIB, as they relate to the safety and 
to the operational readiness of STS-114. The Task Group today 
consists of 26 members from industry, from academia and 
government. Some key members also serve on the NASA Advisory 
Council Task Force on the International Space Station for 
Operational Readiness, which I chair. Also, two serve on the 
NASA Advisory Aerospace Safety Panel. All members bring with 
them recognized knowledge and expertise in a variety of the 
relevant fields for this task.
    I have with me today, Mr. Chairman and members of the 
Committee, the leaders of the Task Group, three panels. Dr. Dan 
Crippen, who heads our management panel. He has a strong 
reputation for objective and insightful analysis. A lot of you 
know him. Mr. Joe Cuzzupoli, who leads the technical panel. Mr. 
Cuzzupoli has had more than 40 years of aerospace experience 
and management experience. Colonel Jim Adamson, who is the 
leader of the operations panel. Colonel Adamson is a former 
astronaut. He has an extensive background in aerodynamics, 
operations, and business management. These gentlemen's 
impressive background is submitted with the record. And they 
are deeply involved in the Task Group's activities on a daily 
basis, and they will be available to answer the specific 
details of your questions.
    And since August of 2003, the Task Group has conducted 
extensive fact-finding activities at all levels within the NASA 
agency and at the contractor team. The members have visited 
NASA and the contractor facilities, participated in their 
teleconferences. We've reviewed documents, conducted 
interviews, received briefings, observed test simulations and 
program reviews. And also, Mr. Chairman, when appropriate, 
members of the Task Group have interviewed and talked with 
former CAIB members.
    The Task Group, to date, has conducted four open public 
meetings in which they reviewed NASA's progress. We have issued 
two interim reports. And the next interim report now is 
scheduled for October.
    The Task Group is encouraged by NASA's progress. We've 
observed the people of NASA are engaged and dedicated to 
correcting the deficiencies that led to the Columbia accident. 
We believe that NASA has made substantial progress in many, 
many areas. At the same time, we believe the agency faces 
significant challenges ahead and has considerable work ahead of 
it in some areas before it will be ready to fly again.
    To date, the Task Group has formally assessed and 
conditionally closed five of the 15 recommendations from the 
CAIB. I want to assure this Committee that the Task Group will 
continue to monitor NASA's progress and the implementation of 
these recommendations as we work to fully close each one.
    Now, looking at some of the challenges, the Task Group 
believes NASA's most important work is efforts to eliminate the 
critical asset debris--i.e., the shedding of debris from that 
external tank. The agency has made considerable progress in 
this area. If it could be ensured that no critical debris would 
come from the external tank, the immediate cause of the loss of 
Columbia would certainly be rectified. While analytical and 
testing techniques will allow a level of comfort before 
launch--and advances in the non-destructive inspection 
techniques may add some confidence to this--it'll still be 
impossible to guarantee no critical debris would be shed. 
Additionally, it may not be possible to obtain statistically 
significant data verifying external tank conditions even by the 
end of the Shuttle program.
    Therefore, on-orbit inspection and repair capability remain 
necessary to reduce the risk to future flights. And since our 
last report, it's become apparent that NASA continues to face 
some technical challenges in developing these capabilities.
    Now, I might report, Mr. Chairman, that even in the last 2 
weeks, there has been significant progress made in the sensors 
to inspect in-flight onboard the Shuttle.
    Should one or both of these capabilities not be 
sufficiently developed by the Shuttle's Return to Flight, the 
potential for a crew to await a rescue mission at the 
International Space Station becomes the logical consideration 
for the next launch. Therefore, the Task Group is starting to 
assess this safe-haven capability.
    A universal concern of the Task Group is the personnel 
requirements to meet the CAIB recommendations for Return to 
Flight. The new engineering and safety organizations that are 
being established at NASA all require talented individuals. And 
right now they're largely drawn from the current NASA and 
contractor pool.
    In summary, the Task Group believes that although 
significant work lays ahead, NASA has made substantial progress 
toward meeting the CAIB's recommendations. And I want to assure 
the Committee that the Task Group remains engaged, they'll be 
aggressive in their fact-finding, and will continue to 
thoroughly assess and publicly report on NASA's progress toward 
meeting the intent of the Columbia Accident Investigation 
Board.
    And I appreciate the opportunity to discuss the work of the 
Return to Flight Group with you this morning. Colonel Adamson, 
Mr. Cuzzupoli, Dr. Crippen, and myself now look forward to 
responding to your questions.
    Thank you, Mr. Chairman and members of the Committee.
    [The prepared statement of General Stafford follows:]

 Prepared Statement of Lieutenant General Thomas P. Stafford, U.S. Air 
Force (Retired), Co-Chairman, Return to Flight Task Group; Accompanied 
       by Joseph W. Cuzzpoli, Member, Return to Flight Task Group
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today to discuss the status of the 
Return to Flight Task Group's assessment activities.
    In July 2003, the NASA Administrator chartered the group, under the 
Federal Advisory Committee Act, to perform an independent assessment of 
the agency's actions to implement the recommendations of the Columbia 
Accident Investigation Board (CAIB) as they relate to the safety and 
operational readiness of STS-114.
    The Task Group consists of 26 members from industry, academia, and 
government. Some key members also serve on the NASA Advisory Council's 
International Space Station Operations Readiness Task Force, which I 
chair. And two serve on the Aerospace Safety Advisory Panel. All of our 
members bring with them recognized knowledge and expertise in a variety 
of relevant fields.
    The Task Group is organized for fact-finding into three panels--
Management, Technical, and Operations. I have with me here today the 
leaders of these three panels.
    No stranger to many of you, Dr. Dan Crippen, who leads our 
Management Panel, has a strong reputation for objective and insightful 
analysis. He is the former Director of the Congressional Budget Office, 
has served as Chief Counsel and Economic Policy Adviser to the U.S. 
Senate Majority Leader, and Domestic Policy Advisor and Assistant to 
the President for Domestic Affairs. Dr. Crippen is also a member of the 
Aerospace Safety Advisory Panel.
    Mr. Joseph Cuzzupoli, leader of our Technical Panel, brings to the 
Task Group more than 40 years of aerospace engineering and managerial 
experience. Presently Vice President and K-1 Program Manager for 
Kistler Aerospace Corporation, he was Vice President and Program 
Manager for the Space Shuttle Orbiter Project for Rockwell 
International during its design, development, and initial operations, 
and was an Assistant Program Manager on Apollo. He is a current member 
of the ISS Operational Readiness Task Force.
    Colonel James Adamson, the Task Group's Operations Panel leader, 
has an extensive background in aerodynamics and operations as well as 
business management. He is a former astronaut with two Space Shuttle 
missions to his credit. He has served as President of Allied Signal 
Systems Technical Services, a government services company which later 
became Honeywell, and was one of the founders and the first Chief 
Operating Officer for United Space Alliance. He is currently CEO of his 
own consulting firm, Monarch Precision, and a member of the ISS 
Operational Readiness Task Force.
    These three gentlemen have been deeply involved in the Task Group's 
activities and will be available to answer the details of your 
questions.
    Since August of 2003, the Task Group has conducted extensive fact-
finding activities at all levels within the agency and its contractor 
team.
    Task Group members have visited NASA and contractor facilities, 
participated in teleconferences, reviewed documents, conducted 
interviews, received formal and informal briefings, and have observed 
tests, simulations, and program reviews.
    In all, to date, the Task Group has conducted approximately 100 
formal fact-finding activities and has issued more than 90 formal 
requests for information to the Space Shuttle Program Office.
    Throughout the process the Task Group has, when appropriate, 
consulted with former members of the CAIB to ensure our members fully 
understand the intent of their recommendations.
    The Task Group has conducted four public meetings at which it 
reviewed NASA's progress in meeting the intent of CAIB and the group 
has issued two interim reports. The next public meeting will take place 
in Houston next week and another interim report is planned for October.
    Based on these extensive activities, I can report to you today that 
the Task Group is encouraged by NASA's progress, and as we said in our 
last report, we have observed that throughout the organization the 
people of NASA are engaged and dedicated to correcting the deficiencies 
that led to the Columbia accident.
    We believe that NASA has made significant progress in many areas. 
At the same time, we believe that the agency continues to face 
significant challenges and has considerable work ahead of it in some 
areas before it will be ready to return the Shuttle to flight.
    Over the last several months, the Task Group has formally assessed 
and conditionally closed 5 of the CAIB's 15 Return to Flight 
recommendations. This means that based on its independent fact-finding 
and deliberations, the Task Group believes that, contingent on the 
agency meeting some specific additional conditions, NASA will have met 
the intent of these 5 CAIB recommendations.
    I would like to briefly address each of these recommendations.
    The Task Group believes that NASA has conditionally met the intent 
of CAIB Recommendation 3.3-1 in its development and implementation of a 
comprehensive inspection plan to determine the structural integrity of 
all Reinforced Carbon-Carbon (RCC) system components. And that the 
inspection plan takes advantage of advanced Non-Destructive Inspection 
(NDI) technology.
    In satisfying CAIB Recommendation 3.3-1, NASA has:

  <bullet> Requested the manufacturer to rebaseline all RCC system 
        components.

  <bullet> Undertaken development of new NDI methods for RCC 
        inspection: thermography, X-ray, and eddy current techniques.

  <bullet> Begun incorporating new methods of NDI into existing field 
        processes.

    Prior to fully closing this recommendation, the Task Group wants to 
see completion of requirements documentation and directives, and the 
results of some additional testing.
    We believe that the agency has conditionally met the intent of CAIB 
Recommendation 4.2-3 to require that at least two employees attend all 
final closeouts and intertank area hand-spraying procedures. In fact 
this commitment has been expanded to include all flight hardware 
closeouts.
    In satisfying CAIB Recommendation 4.2-3, NASA has:

  <bullet> Amended all manufacturing processes and procedures to ensure 
        that at least two employees are present at all manufacturing 
        steps.

  <bullet> Incorporated more stringent quality assurance requirements 
        through additional employee training, certification, and 
        procedures for inspections and imagery.

    Before fully closing this item, the Task Group is awaiting 
completion of requirements documentation and directives, and the 
results of a program-wide audit.
    The Task Group believes that NASA has conditionally met the intent 
of CAIB Recommendation 6.3-2 to modify the Memorandum of Agreement with 
the National Imagery and Mapping Agency--now the National Geospatial 
Intelligence Agency--to make the imaging of each Shuttle flight while 
on orbit a standard requirement.
    In satisfying the intent of CAIB Recommendation 6.3-2, NASA has:

  <bullet> Modified Memorandum of Agreement with the National 
        Geospatial Intelligence Agency to request all available data 
        that may assist NASA in the resolution of investigations.

  <bullet> Implemented an Interagency Operating Agreement.

  <bullet> Obtained necessary security clearances for appropriate 
        positions.

  <bullet> Developed plans to demonstrate new capabilities in 
        simulations.

    Prior to fully closing this recommendation, the Task Group is 
awaiting the assessment of simulation results.
    We believe that NASA has conditionally met the intent of CAIB 
Recommendation 4.2-5 by returning to a straightforward, industry-
standard definition of ``Foreign Object Debris'' (FOD) and eliminating 
any alternate or statistically deceptive definitions like ``processing 
debris'' by the Kennedy Space Center Quality Assurance and United Space 
Alliance.
    In satisfying CAIB Recommendation 4.2-5, NASA has:

  <bullet> Adopted FOD definition derived by National Aerospace FOD 
        Prevention, Inc.

  <bullet> Eliminated the term ``processing debris.''

  <bullet> Conducted benchmarking to determine industry and government 
        best practices and analysis on FOD handling.

  <bullet> Completed workforce training on new definition and 
        procedures.

    Before fully closing this item, the Task Group is awaiting NASA's 
completion of FOD process audits and interviews.
    And, the Task Group believes that the agency has conditionally met 
the intent of CAIB Recommendation 10.3-1 by developing an interim 
program of closeout photographs for all critical sub-systems that 
differ from engineering drawings and by digitizing the closeout 
photograph system so that images are immediately available for on-orbit 
troubleshooting.
    NASA's actions to satisfy CAIB Recommendation 10.3-1 include:

  <bullet> Established a more precise definition of ``closeout 
        photography'' and strengthen general closeout requirements.

  <bullet> Mandated that all digitized closeout photography be entered 
        into a common closeout database system.

  <bullet> Implemented enhancements to the closeout database system.

  <bullet> Implemented photography steps in work procedures.

  <bullet> Upgraded digital photography equipment and developed user 
        training and photography certification.

    Prior to closing this recommendation, the Task Group is awaiting 
the results of simulations to demonstrate that the database can be 
accessed in a timely manner by appropriate personnel, the completion of 
photographer training, and development of a database system 
familiarization course and computer-based training.
    I want to assure this Committee that the Task Group will continue 
to monitor NASA's implementation of these recommendations and that we 
expect the agency to advise the Task Group if there is any material 
change in the status of any recommendation.
    Looking ahead, at our public meeting next week the Task Group plans 
to consider NASA's request for closure of a sixth recommendation, 7.5-
3, which calls for NASA to reorganize the Space Shuttle Integration 
Office to make it capable of integrating all elements of the Space 
Shuttle program, including the orbiter.
    Our fact-finding activities indicate that NASA continues to make 
progress with the other recommendations as well and we anticipate 
several of them will be brought to us for formal assessment by the Task 
Group in the next month or two.
    In April 2004, the Space Shuttle Program Office Safety and Mission 
Assurance Manager described for the Task Group a framework for reducing 
the risk from thermal protection system debris. The primary hazard 
control in the framework is the elimination of critical debris 
shedding. Should the primary control not be completely satisfied, the 
capability to detect impacts during ascent and to detect impact damage 
on-orbit provides warning devices. The ability to make on-orbit repairs 
to tile and RCC, and--as a last resort--crew rescue, provides special 
mitigating procedures.
    The Task Group indicated in its last report that it is satisfied 
with this ``top-down'' approach as it is applied to this hazard 
reduction program. We have said that we believe that this same ``top-
down'' approach needs to be implemented across NASA as a whole and 
specifically to all NASA Implementation Plan items.
    Now, looking at some of the challenges, the Task Group believes--as 
stated in its last report--that NASA's most important work is its 
efforts to eliminate critical ascent debris and the agency has made 
considerable progress in this area. If it could be guaranteed that no 
critical debris would come from the External Tank, the immediate cause 
of the loss of Columbia would be rectified. Analytical and testing 
techniques will allow a level of comfort before launch. Advances in NDI 
techniques may add confidence. Still, to guarantee that no critical 
debris will be shed is impossible short of extensive testing in flight. 
However, it may not be possible to obtain statistically significant 
data verifying External Tank debris conditions even by the end of the 
Shuttle program. Therefore, on-orbit inspection and repair capabilities 
remain necessary to reduce the risk to future flights. Since our last 
report, it has become apparent that NASA continues to face some 
technical challenges in fully developing these capabilities. Should one 
or both of these capabilities not be sufficiently developed by the 
anticipated date of Return to Flight, the ability for the crew to await 
a rescue mission at the ISS will become an important consideration for 
the next launch. Therefore, the Task Group is assessing this ``safe 
haven'' capability.
    A universal concern of the Task Group is the personnel requirements 
to meet the CAIB recommendations and return to flight. The various new 
organizations, from the NASA Engineering and Safety Center to the 
Independent Technical Authority to the Space Shuttle System Engineering 
and Integration Office, all require talented staff drawn largely from 
the current NASA and contractor pool.
    In summary, the Task Group believes that although significant work 
lies ahead, NASA has made substantial progress toward meeting the 
intent of the CAIB's Return to Flight recommendations. On Aug. 26, 
2003, following the release of the CAIB report, we stated publicly 
that, ``the Return to Flight Task Group is committed to doing its part 
to help ensure the Shuttle returns safely to space by making a careful, 
thorough, and independent assessment of NASA's Return to Flight 
plans.'' I want to assure this Committee that the Task Group remains 
engaged and aggressive in its fact-finding and we will continue to 
carefully and thoroughly assess--and publicly report on--NASA's 
progress toward meeting the intent of the CAIB. I appreciate the 
opportunity to discuss the work of the Return to Flight Task Group with 
you. Colonel Adamson, Mr. Cuzzupoli, Dr. Crippen, and I now look 
forward to responding to your questions.

    Senator Brownback. Thank you very much, General.
    And we'll proceed to a round of questions of 5 minutes 
each, and go by order of arrival.
    General, I want to make sure I understand what you're 
saying here, then. You're saying that we are not going to be 
able to remove the falling of debris from the takeoff, which is 
what--when we held these original hearings, Mr. O'Keefe, people 
said, ``This is going to be really tough to stop.'' You're 
saying we're not going to be able to stop the falling of 
debris, so we're going to go to reducing debris, and second, 
then, either an in-flight repair option or a rescue option in 
space. Is that correct?
    General Stafford. Mr. Chairman, NASA has made considerable 
progress in eliminating large areas that could be shed, and 
we're doing--continuing testing on analytical areas, and this 
is an ongoing process. But there can be no guarantee that--or 
certification--that a critical piece will not come off, even 
though we're certifying certain parts of the vehicle, there 
would be a minimum piece for certain areas, certain angles. And 
Mr. Cuzzupoli has followed this on a day-to-day basis, and he 
can give you up-to-date information on that. And most of it 
occurs in the first parts of the launch phase, when you have 
maximum aerodynamic pressure and heating there on the 
spacecraft. And if you want any sub-details, Mr. Cuzzupoli can 
certainly give you that.
    Now, also, as we said, we are continuing on for the 
inspection and repair. There are certain areas that it looks 
like we could repair either cracks or holes up to a certain 
criteria. Also, the inspection capability is increasing every 
week. We don't know that we can have a complete, 100 percent--
again, Mr. Cuzzupoli is up to the day-to-day technical details 
on that. And we're starting to assess the safe haven of the 
International Space Station for a rescue mission, Mr. Chairman.
    Mr. O'Keefe. Mr. Chairman, if I could just quickly add to 
that, I think exactly as General Stafford has described, the 
objective here is to eliminate the critical debris that could 
cause a catastrophic loss of the orbiter. And so, as a 
consequence, that has been isolated to determine exactly what 
would constitute that kind of a condition. What's been the case 
since the very first flight, and all the way up to the last, is 
a flaking effect that occurs with insulation. It's much like 
you'd see on any other kind of, you know, insulated case where 
there is a foam kind of exterior or something. Given the 
circumstances and the intensity of the heat and so forth, the 
objective is to eliminate the critical items of departure from 
the external tank itself, and that's what we're trying to work 
our way through. And I think we've developed a design that 
eliminates that prospect.
    That said, what we've done is tested every one of those 
scenarios. I mean, not just put it through a computer model; 
we've literally gone through the effort of looking at varying 
kind of scenarios and shooting the foam at leading edges to 
determine exactly what the consequence will be. So this is not 
something we're speculating on or just running through some 
model; it's actually being conducted as a test to determine, 
what can the orbiter withstand?
    I'm reminded of a comment that Admiral Gehman offered 
during the course of the investigation on several occasions, 
which is, ``This is one tough piece of machinery.'' And the 
issue is to determine exactly what point, at what stage, does 
that tough piece of machinery take a catastrophic hit? And 
that's exactly what I think the Task Group has helped us to 
sort through and make sure we isolate as a condition.
    Senator Brownback. Well, that leads to my next question on 
this. According to our staff report on this, Return to Flight, 
to date--well, in July of this year we had projected it was 
going to cost $1.1 billion; that's now been upped to $2.2 
billion in the July 2004 report of NASA to this Committee and 
to others, double the cost to Return to Flight. You've done 
five of the 15 items that are required, so you've got ten more 
yet to go and to check through. What's this going to cost? Are 
we anywhere close to really knowing what this is actually going 
to cost to get the Shuttle to return to flight?
    Mr. O'Keefe. This is--you know, again, the primary 
consequence of the changes that have occurred here in the 
overall projections--and this is over a span of time; just not 
concentrated in Fiscal Year 2005 exclusively--is a combination 
of two events. The first one is, again, there are going to be 
sustaining engineering expenses necessary. What the Accident 
Investigation Board pointed out and observed and made as part 
of their recommendations is, you've got to have a more robust 
capacity, organizationally, to deal with this----
    Senator Brownback. Yes, I don't mean to cut you off, but my 
time's really short. Are we confident that the $2.2 billion 
will be the ultimate cost of Return to Flight?
    Mr. O'Keefe. Getting a lot closer, that's for sure. And I 
think the primary components of what contributed to these 
particular cost projections are, again, the induction of all 
three orbiters into a orbiter modification program right now, 
the effort to put on a series of sensors on every single one of 
the orbiters. There's a whole range of things we did not 
contemplate a year ago that we're doing now. So I don't see any 
new unknowns coming down the road. Whether or not this adjusts 
by some fraction or amount is almost a certainty, given the 
dynamics of this. But I don't see this as being a large 
increase differential in the time ahead, because the changes 
are primarily contributed to the options we picked.
    Senator Brownback. And the date? Do you still believe we 
will return to flight in spring of 2005?
    Mr. O'Keefe. Looking promising. I certainly wouldn't want 
to put a date-time group on it, by any means. We're going to 
make sure that when we've met these milestones, that's when 
we're fit to fly, and that's the occasion on which it'll occur. 
And it looks like it's tracking toward a spring opportunity.
    Senator Brownback. Well, now, I agree with that. We don't 
want to go to flight until it's ready and safe.
    Mr. O'Keefe. Yes, sir.
    Senator Brownback. General, you had a----
    General Stafford. Mr. Chairman, I say that in our interface 
with NASA, the Return to Flight Task Group has observed that, 
really, NASA is milestone-driven and not schedule-driven. 
Certainly, you have to have a schedule out there for a planning 
factor, but we're anticipating that most of our task will be 
finished by December. Again, it has to be a milestone to 
complete that.
    Senator Brownback. I agree with that.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Administrator, what do you think will be the cost of 
repair at the Kennedy Space Center?
    Mr. O'Keefe. Don't know, sir. We just did get an assessment 
team on the ground here at about 5 o'clock on Labor Day, so 
here roughly--you know, less than 48 hours ago, we really got 
into the intensity of looking at what the assessments are. But 
we're anxiously working that through right now.
    Senator Nelson. Well, here's the timing on that.
    Mr. O'Keefe. Yes, sir.
    Senator Nelson. We just passed $2 billion last night. 
That's not even going to cover it for Charley. I'm expecting at 
least an additional $2\1/2\ billion that the Majority Leader 
has said he is willing to come forward with next week. Now, 
whether or not that's going to be a part of the homeland 
security bill or whether or not we have to strip it off depends 
on whether or not homeland security gets mired down in a whole 
bunch of other questions.
    The fact is that, as of today, FEMA is running out of 
money, so that's why they had to have the action that occurred 
last night. Now, if you go back to the experience that we had 
with Andrew, there was almost a billion dollars that was 
appropriated to the Department of Defense because of the 
destruction to Homestead Air Force Base. So what I'm saying is, 
strike while the iron is hot. Instead of you having to take 
this out of your budget, this is an opportunity to get money, 
because you've obviously sustained some serious damage. And so 
we need an estimate so that we can roll it into all of these 
other requests that we're getting from the Department of 
Agriculture and so forth and so on.
    Mr. O'Keefe. Yes, sir. This is a tragedy, and we are 
assessing what the scope of that tragedy is. We're working with 
our colleagues in the Administration to make a determination of 
that, and we'll be back promptly.
    Senator Nelson. Now, could you comment, when we see a 
photograph, like that, of the TPS facility, and winds of only 
120 miles an hour, gusts, hit the Cape, and it does that kind 
of damage to a facility that the entire space program is 
dependent upon the production of these thermal protective 
system tiles, you can imagine what 145 miles an hour would have 
done when you look at what 120 miles per hour did to that 
facility. In your calculation on repair, it seems to me that 
there were mistakes made in designing the strength of these 
buildings to withstand the wind and, in the repair and 
renovation, that we've got to move to that higher standard, 
that it's too important for the future of the space program. 
Would you calculate that in your request for repair money?
    Mr. O'Keefe. Yes, sir. We'll take a look at all the 
different variations of what's involved here. Again, I think, 
given the strength and ferocity of this hurricane, the fact 
that the Kennedy Space Center rode this through in the manner 
in which it did--all three orbiters are in great condition, the 
Space Station hardware was not affected, the satellites that 
are there, due for launch, were protected--this was really 
quite a story. I think Jim Kennedy and the team at the Kennedy 
Space Center did a spectacular job of really, really preparing 
for the worst circumstance.
    There was going to be damage. And, again, I--you know far 
better than I do, in terms of firsthand evidence of exactly 
what the consequences across the state have been. The fact that 
the Kennedy Space Center withstood this kind of damage, this 
kind of intensity, and rode it out in a manner that was the 
least problematic is really a testimonial to the 
professionalism of the team down there. They did a spectacular 
job.
    Senator Nelson. Do you have an answer as to why there were 
not backup generators in the three OPFs?
    Mr. O'Keefe. You know, I heard you mention that at the 
opening statement, and I've been inquiring here. We had all 
three of the Orbiter Processing Facilities, the orbiters were 
powered down before the hurricane struck. The objective was to 
minimize that damage. We did lose power in OPF--the Orbiter 
Processing Facility number three, which is where Discovery was 
under repair. Why that generator didn't kick in, as it did with 
the other two, is something we'll have to run to ground. I 
don't know the answer to the question, but I'll find out.
    [The information referred to follows:]

    During preparations For Hurricane Frances last week (Thursday, 
September 2, 2004), there was a prediction that Frances could become a 
Category 5 hurricane. When conditions reach such severe levels, KSC's 
Hurricane Plan calls for the ride-out crew to evacuate the Center and 
gather at a safe location in Titusville. As the ride-out crew leaves 
the Center in this case, they are instructed to remove facility power 
(i.e., throw the breakers), which would have left the facilities on 
back-up generators and uninterruptible power supplies (UPS). Because of 
concerns with potential storm surge with a predicted Category 5 
hurricane, the decision was made to leave the power applied to the 
Orbiter Processing Facilities (OPF) but to shut down the back-up 
generators and UPSs so that if power was lost, they would not come on 
unattended. Normally, the ride-out crews would be in the Center and 
would have been able to monitor power and purge, dealing with any 
anomaly. When the ride-out crew left, all three OPFs had power and 
purges applied.
    Upon return of the ride-out crew, the following was found:

  <bullet> OPF #1--Atlantis power was down, along with the purge 
        capability; the ride-out crew restored power and purges with no 
        problems noted.

  <bullet> OPF #2--Endeavour power was up and running and the purge 
        capability was maintained throughout.

  <bullet> OPF #3--Discovery power was up, but the purge was down 
        (circuit breaker tripped). When the ride-out crew attempted to 
        restart the purge capability to Discovery, cooling was not 
        achieved and a hardware failure with the compressor was 
        identified. It took the better part of a day to repair the 
        compressor in OPF #3 and restore the purge to Discovery. It is 
        not clear whether the purge breaker tripped due to a power 
        problem or due to the compressor hardware failure. Had the 
        ride-out crew been present, they might have been able to take 
        action when power was lost in OPF #1 and the purge lost in OPF 
        #3.

    Senator Nelson. All right. If Ivan were to come to the 
Cape, what is the plan, given that photograph sitting on the 
floor, where you've got a thousand open windows into the VAB?
    Mr. O'Keefe. We're assessing that right now. We're hopeful 
that that will not be of the same intensity, but certainly it's 
going to be a more difficult circumstance if we were to be 
struck exactly the same again. I don't know what the assessment 
will be at this point, but let me find out.
    [The information referred to follows:]

    NASA's primary responsibility in the event of a hurricane is, 
first, to ensure to the greatest extent possible the safety of NASA 
civil servant and contractor personnel and, second, to take all 
practical measures to safeguard NASA equipment and facilities, many of 
which are unique and indispensable to the Nation's space program. The 
Kennedy Space Center (KSC), in conjunction with the Air Force's 45th 
Space Wing, has developed Hurricane Preparation and Recovery procedures 
that address NASA's obligation to balance safety-of-life concerns with 
the need to secure valuable assets during severe storms. However, 
safety is paramount. Lives will not be endangered to secure or service 
flight hardware, provide fire protection, security, repair, or fuel 
generators during severe storms.
    KSC damage and recovery teams were on-site immediately after 
Hurricane Francis and had begun preliminary repairs to the Vehicle 
Assembly Building (VAB) in preparation for Hurricanes Ivan and Jeanne 
before Jeanne hit. The VAB lost 820 panels and a 5x12 foot roof panel 
during Hurricane Francis and a further 30 panels during Hurricane 
Jeanne. Preliminary repairs to the VAB have been completed; analysis 
indicates that these repairs should be sufficient to withstand 
sustained winds of up to 60 miles per hour. If a hurricane were to hit 
KSC with wind loads higher than 60 MPH then it is possible that the 
panels could have come off again. Crews will begin permanent repairs 
starting in November and will have them completed before the start of 
the 2005 hurricane season. Flight processing hardware inside the VAB 
suffered only minimal damage, and KSC personnel are confident that the 
facility will be ready to support Space Shuttle Return to Flight 
activities while the permanent repairs are being affected.

    Senator Brownback. Thank you.
    Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman.
    And thank you, Mr. Administrator. And, General, thank you 
for your service, and to your task force that you have with 
you.
    Boy, it seems like one problem after another, and now 
you've got the hurricane to deal with. I do think it's a real 
good point, if that much damage was done with a 120-mile-an-
hour wind, what if it had been 200 miles-per-hour, which we've 
seen hit certain parts of the Gulf Coast in the past? But I 
know you'll assess that damage as quickly as you can, and so 
that would be a part of the request the Administration will 
send.
    You know, I am worried about safety, of course, but I also 
am worried about, you know, morale and direction within NASA. I 
mean, until we return to flight, you know, the thing that you 
really are meant to do is going to be on hold, and I'm worried 
about that.
    I also am worried about--and I've discussed this with you--
about some of the gaps between the launch systems, the one you 
have now and what you plan for the future, what that's going to 
do to the workforce. How are you going to deal with this? Are 
you going to expedite the decisions? Are you going to extend 
the time that we use the current launch systems? We've got a 
potential problem in the next few years.
    In that connection, also, I think you've got a real problem 
with having more and more demands placed on you, and having to 
basically move money around. I understand, for instance, the 
Hubble Space Telescope supporters are pushing back, wanting 
more money. You're either going to have to ask for more money 
or you're going to have to move it from somewhere else, and 
you're starving a lot of other good programs.
    So I really am concerned about NASA and our plan for the 
future, beyond just Return to Flight. What is our plan? I know 
that there is space exploration and going to Mars and all that, 
but there's a long way between where we are and getting there, 
and I'm worried about how we're going to pull that off.
    I guess I asked a whole collage of questions there, but 
rather than giving you--asking you one after the other, why 
don't you just speak to the general propositions that I've laid 
out?
    Mr. O'Keefe. Yes, sir. No, I appreciate the sentiment, and 
I'll do my best to respond.
    First and foremost, the President, on January 14th, issued 
what is the strategy, articulated that, submitted the budget 3 
weeks later. So the first major step in that process has been 
accomplished.
    The second step is for Congress to endorse that and to 
appropriate the funding that he's requested. That's our fondest 
expectation and hope, that the Congress can see their way clear 
to do that in this appropriations process, and we're confident 
that we can find our way clear to do that, which would 
accomplish much of what you've already referred to. It covers 
the Return to Flight challenges. There certainly are costs that 
we need to accommodate within that, but I think we can 
accomplish that. We've certainly worked through a number of 
options and alternatives for that. And moving forward, we think 
what we've done here is prioritized the approach necessary in 
the President's budget request that was made in February to 
emphasize the priorities that he's directed in this strategy 
that was articulated.
    So that's the process we are moving down the road on. There 
is nothing I see that's insurmountable. Certainly, the events 
of a hurricane and other things are constant new challenges 
that you've got to go wrestle with, but this is, you know, part 
of life, and there's no doubt about it, we're going to continue 
to wrestle with that. But there is nothing I see at this 
juncture that would make or compromise our capacity to 
accomplish the goals that he's laid out in those objectives.
    And as it pertains to your first question, I believe, which 
was, what do we do in the longer term, in terms of retirement 
of Shuttle and then the beginning of the Crew Exploration 
Vehicle through Project Constellation, that occurs at the end 
of the decade. The immediacy of the challenges we face right 
now, the first one is Return to Flight in order to complete the 
International Space Station. We think we're on track to do 
that. New obstacles have mounted, but even those are 
surmountable, in terms of the kinds of challenges we're facing. 
And how we address the end of the decade is something we're 
going to continue to iterate. But in the meantime, nothing 
precipitous will be made in order to preclude any of the 
options necessary to assure a transition between those two 
programs.
    Finally, I would just observe that the morale of the 
agency, from my assessment, has improved drastically by our 
focus on a mission objective. What the President delivered on 
January 14th is a focus, a set of priorities, a clear 
enunciation of what we do in this agency, and that's done more 
to improve the focus, attention, and morale of all of our 
colleagues than any other singular act. We're focused on the 
mission objectives. We're gonna get there.
    Senator Lott. One other concern that I have had for years--
and I've pressed the point, I've discussed it with you, your 
predecessors--a vision for the agency is important for the 
workers, but to have the support of the American people, it's 
got to be more than that. They've got to see some tangible 
results. I've always argued, we get scientific, medical, 
technological, all kinds of benefits from our space program. 
The idea of just going to Mars doesn't, frankly, excite a lot 
of people in my state. They don't really care whether there's 
water up there or not. They'd rather have asphalt on their 
roads. But if you can show, or we can have a process of--or 
programs to get what you learn from that, the benefits, into 
the private sector, then you've got a deal. Don't forget that.
    Mr. O'Keefe. Yes, sir.
    Senator Lott. You know, just some esoteric visionary--
spaceflight is not enough. And if NASA doesn't continue to 
focus on that sort of transfer and programs like the Earth 
sciences area, you're going to pay a price, because you're 
going to lose the support of the American people; and when you 
lose their support, then you lose our support.
    Mr. O'Keefe. Yes, sir.
    Senator Lott. And we need you to help us have the 
information and the ammunition and the technology and science 
transfers that show the people we're getting a great benefit. 
Do you want to respond to that?
    Mr. O'Keefe. Absolutely, Senator, I could not agree with 
you more. Every single dollar we spend on exploration is spent 
right here on this planet and, as a consequence, it has 
tangible benefits that go well beyond the scope of simply 
achieving those exploration goals. The technology we've 
developed just in recent years contributed to the development 
of cataract detection, heart pumps, all the different things 
that we see in day-in and day-out life that were a consequence 
motivated by the technology we developed.
    We anticipate that as a consequence of pursuit of this 
strategy, we're going to see at least that and a whole lot 
more, because it's a motivation in order to develop those 
technologies for greater, broader applications. And we've 
certainly focused on that approach of how to categorize all 
those different consequences that are there. It is really quite 
astounding, and it's something--again, contributes to a much 
broader understanding of our technology development and 
economic improvements in this country, all by itself, in terms 
of where we progress, in terms of economic development efforts. 
That's had a tremendous consequence, and one we will continue 
to focus on as a preeminent priority in this particular effort.
    Senator Lott. Thank you, Mr. Chairman.
    Senator Brownback. Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you. Thank you, Mr. Chairman.
    I think most of us up here are cosponsors of the 
reauthorization of NASA, along with the President's Vision to 
try to go forward. However, we're also--I, at least, am 
concerned about the potential gap in the CEV being ready and 
not having Shuttles for a year or so if we don't have a 
certified Shuttle. I was ready to offer an amendment to the 
bill, but was told that you didn't want the Shuttle to be re-
certified in case there might be a gap. So I want to work with 
you, but I want to make sure that we're not going to have a gap 
that can't be overcome or that would stop the progress that 
we're making on the Station and the experiments that would be 
going. So how would you address that?
    Mr. O'Keefe. Absolutely. No, I thank you, Senator. We are 
delighted to work with you to accomplish that goal.
    Our objective right now--again, as you've just alluded--is 
to complete the International Space Station. That is some 25 to 
30 flights. We're continuing to work through the calculus of 
that. We've met with all the international partners and lined 
up all those modules. Whether that occurs, on what date, and 
what exactly will be the effect of that is going to be a 
consequence of time. How rapidly do we get back to Return to 
Flight?--and what the sequence of events could be. Any number 
of different things could alter that schedule.
    At present, we're looking at something that will accomplish 
that task by the end of this decade. Our partners have signed 
off on that. They're all in agreement that that does meet the 
objectives of each of us in the International Space Station 
partnership.
    Along the way, too, we're concurrently developing, under 
Project Constellation, the Crew Exploration Vehicle. The 
response we've received in the broad agency announcement that 
was put out here just a few months ago has been overwhelming. 
We've gotten better than 1,200 different respondents, and have 
nicked that down now to about seven or eight major teams that 
are now moving forward. And what we're looking to is, by 2008, 
the development of the first spiral of Project Constellation, 
which will be an unmanned vehicle to be accomplished by that 
time. And it looks like we can accomplish this task.
    There has been a remarkable interest from, not only the 
traditional aerospace interests and, kind of, industrial 
prowess that we see across this country, but a whole bunch of 
different companies and organizations and efforts that have 
gone into looking at this very differently. And achieving that 
by the end of this decade appears now to be within range of 
something people are excited about, they're ready to pursue. 
And all that stands in the way of achieving that task is the 
endorsement by the Congress of the President's budget request 
for this coming fiscal year. If we get that, we're on our way 
toward that task, and I think we can close that gap in the time 
ahead.
    Senator Hutchison. Well, let me just say that I certainly 
understand that you don't want to take any money away from the 
future by having that continuation on the certification. 
However, we also have to look down the road at all of the 
things that happen that we don't expect to happen, and I want 
to make sure that we don't have a gap that really is 
unacceptable from a scientific standpoint. So let's work on 
something that doesn't take away from the CEV or our long-term 
goal, but also recognizes that, in the next decade, a lot of 
things could happen----
    Mr. O'Keefe. Sure.
    Senator Hutchison.--from a hurricane to some other 
delaying--something doesn't--a part doesn't come in or doesn't 
fit or you don't have the progress you think you're going to 
have.
    Mr. O'Keefe. Yes, you bet, absolutely, and I couldn't agree 
more, Senator, and we will work with you.
    The one issue I would caution--and I'd invite General 
Stafford to comment on this, as well--is, you know, the issue 
of certification is something I really want to steer off of as 
a general proposition, because it implies that somehow we have 
eliminated all of the risks that would be involved in 
something. We're never going to do that. This is always going 
to be a risky proposition. We will never eliminate that.
    And what we're doing right that is short of that term is, 
again, tearing down every single one of the three orbiters to 
assure that we've done this in a very, very extensive, major-
modification effort to bring it up to an industrial standard we 
think gives us the best shot at flying those vehicles for the 
balance of time that it has available to complete the 
International Space Station, to do what we've committed to do, 
to yield the science return that we'd always hoped for. And I 
think we're within range of that.
    Just on the efforts we see today on Expedition 9, the 
returns we're getting off the science is really compelling. And 
so the opportunities to do that, I think, are ahead of us and 
in order to do this within the achievable is what our objective 
is, and to do it in a way that guarantees we do it to the best 
of our ability.
    Senator Hutchison. Before my time is up, because I 
understand that issue, but the last thing I wanted to bring up 
is the issue of Russia, which also ties into this. They've--
apparently, their patience is wearing thin on borrowing their 
Shuttles. So what is the situation with Russia? Are we going to 
have something with them that would be ongoing after 2006 when 
the contract is up? And is it going to be something that helps 
us get through this period and then we will be able to carry 
our load again?
    Mr. O'Keefe. Uh-huh, no, thank you, Senator. The Russian 
performance as a member of the International Space Station 
partnership has been exemplary. I mean, they have done an 
amazing job. And they are as professional and as focused to the 
task, to accomplishing these efforts, as we ever could have 
imagined. Any doubts about that have been absolutely 
eliminated. They have done a fantastic job.
    We are in the middle of negotiation now with the completion 
of what's referred to as the Balance Agreements, which is for 
the remainder of the time between now and Fiscal Year 2006. 
We're also laying the groundwork in that baseline for the 
agreements that would follow after that, in terms of 
continuing, kind of, efforts as all of us as partners to 
support the International Space Station. That's continuing 
well. And along the way, there has been no diminution 
whatsoever in their support. Absolutely. All of us have got 
challenges that we're wrestling with, and they do as well as 
our other partners do. But they have not diminished in any way.
    Last Monday, the Expedition 10 crew was announced. That's 
due for launch in October. And our Expedition 9 crew will be 
returning. I plan to be there to assure that that gets 
observed, and we continue to work with our partners to 
accomplish this.
    But there is nothing but the highest professionalism I've 
seen there. The new Director General of the Russian Space 
Agency, Anatoly Perminov, has really done an astounding job of 
getting started right away, and into the saddle immediately, 
and we haven't missed a beat with the partnership. So they've 
done an exemplary job, and we continue--we expect that there 
will be a continuation of that performance.
    Senator Brownback. Senator Breaux?

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you. Thank you for your 
presentations.
    I'd like to just touch on, I think, what Senator Lott might 
have been referring to, and others, in the sense that it seems 
to me that we've got two challenges, among others; and one is 
to pay for the past, and also prepare to pay for the future. 
The past being: How do we fix the existing Shuttle? How do we 
make sure the Space Station is working? And, at the same time, 
with a limited amount of money, embark on new missions to Mars 
and new missions to the Moon, and a new vehicle. And it seems 
like we've postponed fixing the past to pay for the future; at 
the same time we're shortchanging the future because of the 
costs of the past. Now, I don't think this all adds up. I mean, 
we've still got problems in the past and that you're being 
challenged to go out with new launch vehicles and new missions 
to Mars and to the Moon, and there's no extra money being 
requested for all of this. It just doesn't add up, from where I 
sit, that you're not going to be able to--while we're losing 
tiles in Cape Canaveral, well, we're also still losing tiles on 
the Shuttle. And that ain't fixed. I mean, you can't do it with 
the money you've got. Now, you tell me how you can.
    Mr. O'Keefe. Well, sir, I think the budget request the 
President made in February of this year covers the costs we 
believe are necessary in order to return the Space Shuttle to 
flight. We've got additional costs that we've identified as 
part of this latest implementation plan. We can handle that. 
This is not a show-stopper by any means. There are methods and 
different options we're looking at now to accomplish that.
    But the first major step is, the Congress would support the 
President's budget request. We are on our way. There is every 
indication that that may be problematic. The House 
Appropriations position a month ago--2 months--I'm sorry, a 
month and a half ago--would significantly diminish that 
capacity. It would make what you just said an absolute fact: We 
can't do this at the levels that they have contemplated. So, as 
a consequence, this really is, in concert with the Columbia 
Accident Investigation Board's report, in which they said the 
President has to establish a vision, has to establish a 
strategy, has to ask for the money necessary. Well, we did 
those three things. The next step that the Accident 
Investigation Board argued is that Congress has to support 
that. We're looking for that last step. And we appreciate your 
indulgence in getting there, but that's going to be the major 
effort in order to achieve this.
    At that point, we're talking about at the margin. Under the 
present conditions, if the House Appropriations position goes 
forward, you're right, we cannot do this.
    Senator Breaux. If the amount that the House has 
appropriated is the final amount appropriated to the agency, 
what would you have to slow down, cut back, or eliminate?
    Mr. O'Keefe. Whoo, boy. I think it significantly 
compromises the opportunity for the exploration agenda. The 
Crew Exploration Vehicle is something that--you know, the whole 
Constellation effort gets put in abeyance. The effort that 
we've really labored in the last couple of years to see a 
breakthrough in in-space propulsion, through Project 
Prometheus, is something I don't see any option, in terms of 
proceeding with that. Our first primary objective is going to 
be to get the Space Shuttle back flying to complete the 
International Space Station. That's agenda item number one. And 
Return to Flight, anything else beyond that, that's what we've 
got to focus on in order to achieve any of this under any 
combination of events. So it makes all those other efforts 
very, very much compromised.
    Senator Breaux. Well, I mean, I think, Mr. Chairman and our 
colleagues, I mean, that really is the question. We can outline 
some very ambitious concepts about what we need to be doing--
fixing the Shuttle, fixing the Space Station, going back to the 
Moon, and then ultimately to Mars--but if we don't fund it, we 
can't do it. And we have a disconnect here between what we're 
giving them as a mission to do, which is very laudatory in 
public pronouncements, but if we don't support it, it's not 
going to be able to get done. I think you've heard the 
Administrator say that there would have to be substantial 
changes in all of these missions if we don't do any more with 
the funding than what the House has contemplated. I mean, you 
just can't----
    Mr. O'Keefe. Yes, sir.
    Senator Breaux.--you can't accomplish it with the tools 
that we're giving you, in terms of appropriations. And we're 
going to have a make a decision. What are our priorities? Is 
this one? And if it is, we're going to have to step up to the 
plate with the necessary funding to do it or we're going to 
have to drastically change the mission.
    So thank you all for the good job you're doing.
    Mr. O'Keefe. Well, thank you, Senator. I appreciate the 
illumination on the issue, because it really is that 
imperative. And, again, if the House position prevails, the 
clear position from the Administration that's been articulated 
is the President's senior advisors will recommend that he veto 
the bill, period.
    Senator Brownback. Mr. Administrator, I feel like now we're 
getting somewhere, OK, on the discussion. Because this is--what 
I've looked at, as well, for some period of time, and have been 
very strongly supportive of the President's exploration vision. 
I think that it's time, on the manned space programs, for us to 
really look beyond where we are right now. I think on the 
unmanned programs, you guys are doing a fabulous job. It seems 
like good vision, well established, it's being accomplished, 
things are moving very well. So you, kind of, set that 
portfolio aside and say, ``Great job,'' from a policy point of 
view.
    The policy point of view on the manned space program, 
though, you look at that, and you--I think we're stuck too much 
paying for the legacy of the past and not projecting on into 
the future here. I mentioned, at the outset here, about looking 
at the Shuttle. One outside group has said, ``Do we need 30 
more missions with the Shuttle?'' Now, this is over the life 
expectancy of the Shuttle; that's not this next budget year, 
which you're focused on, and I understand that. But if you look 
at what they are saying, they're saying you can do this in 10 
to 15 flights, not 30, if you offload a series of things. I 
know you've been looking at this internally, as well.
    Looking on down the road, isn't it time we had that type of 
policy discussion of saying that the legacy cost of this is 
just too much, we have some other options, and we really need 
these funds to go into the next phase for human spaceflight, 
and try to really have that level of policy discussion, if 
we're going to whittle these down to half the number, so that 
we can get that money flowing toward the exploration vision the 
President articulated in the middle of January?
    Mr. O'Keefe. Yes, sir. I take your point. And please be 
assured that the approach that we've used in trying to come up 
with what is the longer-term objective and completion of 
International Space Station has been driven by the general 
mantra of: every single flight has to fight its way into the 
manifest, has to justify the reason why we're going to fly it. 
And what it really comes down to is, we've done a terrific job 
over the years of designing every one of these components and 
modules to fit precisely into the Space Shuttle cargo bay. It 
is ``the'' asset that gets it all there. It's lined up 
impressively. It's one of the facilities that rode out this 
hurricane with great skill--is all those modules are lined up 
perfectly and going through testing----
    Senator Brownback. I understand. We----
    Mr. O'Keefe.--at the Kennedy Space Center. That's the only 
way to get them there.
    Senator Brownback. Yet the Planetary Society and, as I 
understand it, some of the internal discussions are saying you 
could offload a number of these missions and get it down to 10 
to 15.
    Mr. O'Keefe. Tactical----
    Senator Brownback. Have you looked at either their studies 
or at your own internal ones that would say we could cut the 
number of Shuttle missions in half?
    Mr. O'Keefe. With all due respect to the Planetary Society, 
we are desperately trying to accomplish the task of getting the 
modules we know are there through the means that is feasible to 
do, that's known. And anything we can offload, in terms of 
logistics requirements, whatever else, we are actively 
exploring those alternatives now to see what kind of commercial 
servicing options may be pursued. We will put out a request for 
information on that. The industry is out examining that now. 
But I don't see a real significant diminution of the flight 
rate, because it's just the sheer volume of hardware that fits 
exactly within the Shuttle, and there are no other means, lift, 
in order to accomplish that task that we know of.
    We'll continue to look at that, constantly. This is an 
ever-moving effort. And our friends in the International Space 
Station partnership, their only interest is--not, how does it 
get there--that it does get there. They are agnostic to the 
question of exactly how it's accomplished. And so the means by 
which we achieve that goal is the objective, and we're 
constantly looking for new ways to do that.
    Senator Brownback. We will continue that discussion.
    General Stafford, I want to ask you something on heavy-lift 
capacity, because this is something else that we've wrestled 
with here for some period of time. And I don't mean to put 
another issue on the agenda, but, as we do budget these things 
on out, you chaired a study--gosh, that's over a decade ago--
and thank you for your continuous service to this government 
and your repository of knowledge that you continue to provide 
to us. But you said then that we were--experience has shown 
that large liquid hydrogen and oxygen engines have been 
expensive to develop and operate. Oxygen and hydrogen 
propellant is not an attractive option for the first stage of 
heavy-lift launch vehicle because of the large tank volume and 
safety concerns of using hydrogen below an altitude of 100,000 
feet. I don't mean to drag you back to a decade-old report.
    General Stafford. Oh, I sponsored----
    Senator Brownback. You probably know this well, but aren't 
we at a stage now where we really need to be focusing on 
different or better options for heavy-lift capacity, as well, 
as we look forward into the future?
    General Stafford. Well, we were looking at the time-set 
that I chaired the Synthesis Group, sir, to look forward. And 
one of the key efforts for exploration is large mass to low-
Earth orbit. And from that, it takes a heavy lift. And we were 
looking at the lessons learned from Apollo. We were looking at 
lessons--had inputs from academia, from industry, all over. 
And, at the time, they said for the first stage for volumetric 
efficiency, was probably still the locks or something like 
that, with kerosene. And the upper stages would certainly be a 
very high efficiency, with hydrogen and oxygen. Now, things 
have progressed since then. You can use booster stages on the 
side. But the main criteria is a large mass to low-Earth orbit, 
Mr. Chairman.
    Senator Brownback. And have we accomplished that? Are we 
getting the heavy-lift capacity now that we need?
    General Stafford. Well, the only heavy-lift capacity that 
exists in the United States today is the elements from the 
Space Shuttle. And if--there have been, you know, certain ideas 
put forth, like the Shuttle C, at one time--that was back in 
the 1990s--and that would put about 140,000 to 170,000 pounds, 
if I'm correct, into low-Earth orbit. The Saturn V, at the 
peak, put about 300,000 pounds when the third stage shut off; 
and then to escape velocity, it was approximately 120,000 
pounds.
    Senator Brownback. I'm concerned we've not addressed this 
adequately. And this is a big, big issue, as well----
    General Stafford. Yes, sir. I'm----
    Senator Brownback.--exploration. And this is one, as an 
issue, that's been around for some period of time.
    General Stafford. That is correct, Mr. Chairman. And I 
agree, we have to have a heavy lift for a large mass to low-
Earth orbit.
    Senator Brownback. Senator Nelson?
    Senator Nelson. Which brings us back to the policy 
question, Mr. Chairman, that Senator Hutchison had raised. If 
your only capability of heavy lift is what we have now, and if 
we know that history tells us, in the development of new 
technologies, that it doesn't come in on time, so that the Crew 
Exploration Vehicle likely would be delayed, instead of there 
being a hiatus of 4 years under the present plan of the policy, 
as articulated, which--you stop the Shuttle in 2010 and the CEV 
isn't ready until 2014, with the slips that are likely, you're 
talking about 5, 6, 7 years that we would not have a man-rated 
capability of getting up.
    Senator Hutchison said that in her own words. I'm saying 
that in my own words. And I think that that is a dangerous 
position for the United States to be in, that we would be down, 
without the capability of launching humans, over a 5-, 6-, 7-
year period. Would you comment on that, Mr. Administrator?
    Mr. O'Keefe. Well, again, I think there are two mitigating 
factors here, Senator. And I don't disagree with your 
assessment of what could be the worst-case scenario. That said, 
we're going to know this sooner than later.
    I mean, the approach that the exploration systems folks 
have come up with on these broad agency announcements is to 
look at the first spiral, first increment necessary, for an 
unmanned, admittedly, piece of Project Constellation. And 
that's due for 2008. That's what everybody's targeting on, 
that's what everybody's focused to. And exactly how that will 
evolve beyond 2008 is a point that we'll know a whole lot 
better long before that first flight occurs. That's before the 
retirement of the Space Shuttle program. And so, as a 
consequence, you're going to see some overlap here, and we're 
going to make some, you know, much better judgments as we get 
closer to the event, rather than speculating on what could be, 
best-case/worst-scenario.
    And we've often been accused at NASA of being way too 
optimistic. This is one where we've covered all the imperatives 
here, where you're going to see a demonstrated capacity of that 
first spiral before there's ever an intent to complete the 
Shuttle program. And we'll see what the determination is that 
time. But everything's tracking exactly right, and the 
enthusiasm out there for meeting this objective is great.
    The last point that I'd raise is, one of the things that we 
can't understate or diminish is the extraordinary learning 
we've gotten from the International Space Station assembly 
process. This is an engineering marvel. I mean, we've learned 
how to assemble pieces on orbit in a way that, frankly, 10, 15 
years ago, the debate was, ``Can't be done. Can't be done.'' 
Great confidence exerted by lots of folks who knew what they 
were talking about, obviously, who said, ``Cannot be done.'' 
Well, we've got a couple of folks living there right now in 
this can't-be-done machine, and it's half done.
    We are tracking right now. Every component is in line at 
the Kennedy Space Center now, ready for launch as soon as we 
can get back to flying. And that's an accomplishment that, 
really, we've learned an awful lot about how to do on-orbit 
assembly that, frankly, 10, 12 years ago, was viewed as 
impossible.
    So all that considered, rather than be wildly optimistic or 
be forecasting wildly pessimistic, what we're going to see is a 
series of events and dates coming up here toward the end of 
this decade in which we're either going to meet that first 
spiral, or we don't, and the proof will be in that particular 
demonstrated event. And if it is, we're going to make some 
determination of where we go. There's time.
    Senator Nelson. Mr. Administrator, what you need is 
Congressional oversight, and that is something that has been 
sorely lacking here. With Congress not being able to pass an 
authorization bill for NASA--you've heard that in other arenas, 
such as intelligence activities, which is one of the things 
that we're dealing with right now in Congressional oversight--
and the Congressional oversight that I'm giving you, as 
expressed by a Republican and a Democrat in a nonpartisan space 
program, is that it's not in the interest of the United States 
that you have a 5- to 7-year hiatus in which the United States 
does not have the capability of launching humans. And that's 
what I would purely offer to you.
    General Stafford, you're known for your straight talk. I 
want to ask you three questions. Has your Task Group witnessed 
any barriers or impediments or areas of concern for Shuttle 
safety that were not previously addressed by the CAIB?
    General Stafford. Senator Nelson, at this time, to my 
knowledge, we have not, you know, identified any barriers--or 
not--and I'll check with my three panel leads back here.
    Senator Nelson. OK, second question. Have you witnessed, 
General, any Return to Flight launch-schedule pressures 
affecting NASA's decisionmaking?
    General Stafford. In my observation, Senator Nelson, no. As 
I pointed out to the Chairman and the rest of the Committee, 
what we observed are milestones, that NASA will achieve a 
milestone before we go ahead and close out those items.
    Senator Nelson. The third question is, what is your 
assessment of the workforce morale and the skill levels to meet 
the Return to Flight goals?
    General Stafford. Well, as I pointed out in my statement, 
Senator Nelson, the Return to Flight Task Group is concerned 
about the personnel to support the whole effort, and this was 
written up in our last report--you know, the quality of 
people--because we're expanding the safety organizations, and 
all this is coming out of other NASA personnel and the 
contractor pool that is available.
    As far as the morale, now, again, my three panel leads have 
had daily interface with those people, and I'll look to them to 
check on--as far as morale.
    All of them have said basically the morale is high in their 
daily meetings. And from what I've observed--and, again, in a 
macro sense, sir--it's high.
    Senator Nelson. Thank you, General.
    General Stafford. One thing--I would like to respond again 
to the Chairman about the heavy lift that just came to mind. 
Again, when we completed that study, Mr. Chairman, 13 years 
ago, we outlined, you know, the heavy-lift capability. But, 
again, technology has progressed in these 13 years, so 160,000 
pounds to low-Earth orbit today will do more than what it did 
back when I conducted that study, sir.
    Senator Brownback. Good. I just--I pointed it out because 
you did that for Moon-Mars mission review at that time, and 
talked about the need for heavy-lift capacity to be----
    General Stafford. Right.
    Senator Brownback.--able to do that. Now, maybe it's a 
different ball game now, and hopefully it is. It's just as an 
issue--as I look--saying, OK, we want to get to this new vision 
for manned space exploration--I want us to invest our dollars 
there, and it seems like we've depreciated out the old 
machinery here, and it's time to move on forward. It's got a 
heavy expense in repair if we're going to use it, and, you 
know, we're at $2.2 billion on Return to Flight now. We don't 
know if that's the exact number it's going to finish with. 
You've got 5 of 15 items accomplished, but you've got ten more 
to do. We don't--we've got to either have a system where you 
can repair, in-flight, or rescue. That seems like, to me, 
you're going to--you're talking about some serious dollars 
being able to do either of those types--or probably you'll want 
a system where you can do both of those if we're going to use 
the Shuttle. And I just--I'm looking at this thing, and this 
thing has got a lot of cost associated----
    Mr. O'Keefe. Well, Mr. Chairman, if I could, the one point 
I would caution is that this is not an additive or exponential 
equation here, where you take five recommendations and it costs 
this much to get there, and another ten to go, and so you take 
the exponent and you just escalate it. This is basically what 
the cost is.
    Last summer, when we, you know, estimated the cost of what 
we were doing here, we were really, you know, doing a forecast 
that was well within a swag, because the Accident Investigation 
Board recommendations were just codified on August 26th of last 
year. We formulated our best bet in putting this together for 
part of the budget. And what we've now encountered is a whole 
series of things that we've done that I think, in the end, is 
not so much an increase in cost as much as it's just a front-
loading of cost. What we're doing--again, all three orbiters in 
major modification. That would normally happen over a span of 5 
or 6 years. The fact that it's intensively happening all in a 
span of about 18 months is what's front-loading these costs. It 
means you save cost from the out-years of not having to do 
that.
    The second thing we're doing is a lot of sustaining 
engineering effort. One of the observations in the 
recommendation in the Accident Investigation Board report was 
the requirement for inspections and a whole range of different, 
kind of, capabilities, organically, within the agency, to do 
this. That's going to cost, over time, organizationally, the 
effort necessary, and that's what I think Tom Stafford has 
observed, is that we're really tapping some of the best folks 
out there, but that's kind of getting to be a diminished 
number, because we're recruiting them all in to be part of the 
Engineering and Safety Center, to be part of the Independent 
Technical Authority, to be part of the sustaining engineering 
effort at Johnson, at Marshall, at Kennedy, in order to assure 
we've got a robust engineering capacity in those places. That's 
going to cost, and it's going to be cost over time, in terms of 
those organizational changes. And it isn't directly related 
exclusively to Shuttle itself.
    So part of this is an adjustment of cost up front, rather 
than an increase or an additive cost over time. And, indeed, 
we'd much rather see that happen now, during this time when all 
the orbiters are down, so we can do the kind of repairs 
necessary to make the upgrades necessary for sensors and the 
booms and everything else, to do that right.
    Senator Brownback. And that's agreed. It's just--I don't 
think we know that the $2.2 billion is a hard figure, either. I 
mean, it ought to be, and it looks like, to me, it's probably 
more than a swag off of this one, but, still, you just don't 
know what these things are going to consume, budgetarily, on 
you. I mean, I hope this is the end of it for--as far as, OK, 
yes, we can do it, and we're not driven by dollars or time-
frames; we're driven by milestones so that nothing happens 
until this thing is certified that we're----
    Mr. O'Keefe. Sure.
    Senator Brownback.--we're clear and we're good to go on it. 
But, you know, that's----
    Mr. O'Keefe. Well, for what it's worth, I mean, you're 
absolutely right. I don't want to mislead you in any way that 
we've got a firm, fixed handle on these numbers. No doubt 
about, this is always going to be something that's going to 
come up here. I mean, it seems like it's a daily event, you 
know, between acts of God and everything else that occurs.
    That said, the number we're looking at today, the cost 
we're looking at, the efforts we're engaged in, what we're 
doing to, you know, kind of work through each of these 
recommendations by the end of this year, is a whole lot better 
understood than where it was on this very date one year ago. 
And at that time, it was, you know, a forecast, at best. Today, 
we can bind this within a parameter.
    General Stafford. Mr. Chairman, say we have conditionally 
closed out 5 of the 15 recommendations. We're also way down the 
road on many of the other 10, Mr. Chairman. And hopefully, in 
the next 2 to 3 months we can close out another 4 or 5. Our 
planning factor is the end of December, but we're not going to 
stop until everyone has, you know, met those milestones. But 
we're way down the road on considerably more than just those 5 
that have been conditionally closed, Mr. Chairman.
    Senator Brownback. So you believe, as you independently 
review this, by somewhere near the end of this year, that you 
should be able to close out all 15?
    General Stafford. If the conditions are met by NASA. That 
is our planning factor. If they're not, we'll go right on over 
into the next year.
    Senator Brownback. No, I understand the planning factor. 
But I'm just saying, as you observe, from outside NASA----
    General Stafford. Yes, sir.
    Senator Brownback.--and what it is doing, you believe they 
are on track to hit all 15 milestones by the end of this year?
    General Stafford. It may be difficult on several of them, 
sir. And particularly, as I outlined, the biggest challenge is 
the external tank and the outlining on the critical debris. So 
the technical part is really the critical part, and Mr. 
Cuzzupoli could enlighten me if there are any further sub-
details that you would need.
    Senator Brownback. But you believe the technical ability is 
there, even on the external tanks, to be able to accomplish 
this limitation of debris?
    General Stafford. We know that a lot of the areas have been 
accomplished. And right now, the milestone looks like that they 
should ship the tank there in November. But, again, they won't 
ship the tank until the criteria have been closed.
    Senator Brownback. Mr. Cuzzupoli, do you want to comment on 
this? Do you mind? I hate to extend this, but this really goes 
to the core of what we're trying to get at, at the hearing.
    Mr. Cuzzupoli. Thank you, Senator.
    Senator Brownback. Are we going to be able to 
technologically address the issues on the external tank?
    Mr. Cuzzupoli. Yes, we will. And from an independent 
viewpoint, NASA has done one great job of identifying their 
fixes on the external tank, and they've got a real good path to 
getting there. The issue, again, is to make sure that none of 
the foam comes off the critical debris area, and that's a tough 
job.
    The CAIB has put some very strong recommendations, very 
high recommendations. And NASA, again, has lifted the bar over 
that recommendation, and it's going to be a difficult work 
going forward, but I believe what the General said, that--by 
the end of the year--right now, the recommendations look like 
we can maybe conditionally close all of them. Some of them will 
have to stay open based on verification. But they're on the--on 
a milestone schedule, to complete everything by the end of the 
year, as far as recommendations.
    Senator Brownback. So no technological hurdle that's 
insurmountable on the foam issue and the external tank.
    Mr. Cuzzupoli. We, on the independent parties, have seen 
none that can stop them from going forward.
    Senator Brownback. And you, as an external reviewer, 
believe that they are on track to be able to close this out, at 
least conditionally, by the end of this year.
    Mr. Cuzzupoli. Yes, Senator.
    Senator Brownback. OK, good.
    All right. Gentlemen, thank you. Thank you very much.
    Mr. Administrator, I might add--throw one final thought in. 
As we're putting the appropriations together for this year, it 
seems like we really--it may be time, given the 
Administration's view on this and a veto threat--or 
recommendation of a veto by key advisors to the President, more 
accurately--you know, it may be time to try to get some of the 
chief sponsors of this together to try to discuss that--while 
we may talk about an out-year issue, you've got a near-term, 
this-year issue that we need to resolve. We've got budget caps. 
We're trying to get back into a balanced budget. Everybody 
understands that; you more than anybody, having worked in this 
process before, and you understand where you are in the 
appropriations process. But it might be wise to try to get some 
of the key, chief people together in the House, Senate, and the 
Administration to try to resolve this issue here pretty near-
term so we could maybe come up with a number that not anybody 
is completely satisfied with, but that's workable on this year, 
and on a this-year appropriation. And it seems like it may be a 
wise thing to do here pretty near-term.
    Mr. O'Keefe. No, I appreciate that, Senator. And this is 
certainly a clear understanding on our part, how challenging 
this is. This is a really tough budget year. There's no doubt 
about that.
    That said, I think you put your finger right to it. A lot 
of the debate and discussion about what we do in the out-years 
and what's the right permutation and when's the gap and--that's 
academic if we can't get through this first stage. And we 
understand that to be two critical factors. The first one is, 
we have to demonstrate a proficiency--technical and 
professional proficiency--of Return to Flight. That's our 
fundamental objective right now to do that. And number two is--
and equally important--is, the Congress of the United States, 
if it would simply support what the President's budget request 
has done, that will get us toward that objective.
    So how we debate what these out-year permutations are, are 
really important, they're significant, they're imperative for 
accomplishing this strategy, but we can't even get out of the 
starting gate unless we can accomplish this, in this coming 
year, on those two variables. And that's where, you know, the 
issue resides right now.
    Mr. Chairman, if you would permit me one last point.
    Senator Brownback. Let me finish this thought, though----
    Mr. O'Keefe. Yes, sir.
    Senator Brownback.--because what it seems like I'm 
observing is that you've got a pretty strong group supporting 
the Space Shuttle, you've got a strong group supporting the 
exploration mission, and then you've got a strong group that 
doesn't want to concentrate resources in fewer areas, which 
you're going to need to do to be able to get these done. And 
what I would hope we could do is, in the near term, the first 
year, let's try to agree on a number, that we can hit those as 
we continue to negotiate that set of three policy issues that 
are out in front of you, which I think is all doable, but you 
are going to--it is going to have to take somebody kind of 
pulling the pot together and getting it made so we can get that 
done.
    Mr. O'Keefe. Fair enough. I agree with you wholeheartedly.
    If you'd permit me one last comment, sir.
    Senator Brownback. Please.
    Mr. O'Keefe. There was--at the point in which there were a 
couple of discussions of what the morale and what the condition 
of it is across the agency, let me just offer, rather, my 
opinion--as anecdotal evidence, I admit--a missive that was 
sent out a couple of weeks ago by the deputy program manager of 
the Space Shuttle program, Wayne Hale, that he sent around to 
all the Shuttle team members and all the colleagues we have 
that are working this issue. It really is uplifting. It is a 
piece that speaks more, in my judgment, to what the morale of 
the people who really matter, that are really turning the crank 
and doing this job and are dedicated to this task, have 
summarized. And this is something I consult just about every 
day now, because it is an important reminder of what this is 
all about and why people care about it. It's a really great 
piece. And if you'd permit me, sir, to insert that for the 
record, I'd appreciate it very much.
    Senator Brownback. It'll be in the record, without 
objection.
    [The information referred to follows:]

Subject: Back to School (August 25, 2004) by Wayne Hale, Jr., Deputy 
        Program Manager, Space Shuttle Program
    The new year doesn't start on January first; it really begins when 
school opens.
    The whole family has to get back into the familiar routine, up in 
the morning, breakfast, school bus, homework at night, school 
activities. There is electricity in the air with the excitement of new 
opportunities. No matter how busy the summer has been, the rhythm of 
life speeds to new heights with the start of school. And even though we 
have our calendars marked in advance, the start of the school year 
always seems to come as a surprise.
    For the Space Shuttle Program, it's back to school time, too.
    Almost unexpectedly, we are back into routine: flight design is 
into the production template, the crew training is on schedule, and all 
of those old standard preparation work items are on the agenda. 
Stacking has started on the flight boosters. Discovery is powered up, 
the schedule says ``up mission processing.'' There is a full court 
press underway in the OPF for both Discovery and Atlantis; parts are no 
longer being removed, but installed and checked out for flight. Flex 
hose and wiring inspections--while never finished--are no longer the 
focus of our attention nor are they the pacing items. At Michoud, foam 
is going back onto ET-120 for flight--certified!--after a long period 
of removals, dissections, tests, and discussion. Everywhere we look; we 
see flight preparation routine at last. Even hurricane season seems to 
be part of the routine and will not slow us down.
    A promotion in grade school leads to more difficult courses. Long 
division is tough but the answers are more precise than short division. 
Algebra is not just a harder form of arithmetic, it requires a whole 
new way of thinking. The homework takes longer than it did the previous 
year. So it is with the Shuttle program. We also have a new way of 
thinking and a new standard of precision to meet. Problems require more 
work, more analysis, more tests than they did ``last year.'' Our 
homework is going to be tougher, and take longer. But the answers will 
be worth it: we will know rather than guess, hope, or ignore, and we 
will fly more safely.
    When I was in college, after just the first day of classes I always 
felt I was 3 weeks behind on reading and homework assignments. So now 
with the Space Shuttle program; a huge amount of work is ahead. Even 
though the challenge seems formidable, we know that somehow we will get 
it all done.
    The juggernaut of testing, analysis, review, and certification must 
be completed, even while working through the template to flight. Yes, 
this year is going to be tougher than before.
    At the end of the spring semester there is always a big final exam 
that tests everything covered during the year. Even before the first 
day of class every student knows that the final exam will come. It is 
the same with us; next spring we will have a big Final Exam that will 
test everything we are doing. Every decision will play into that test 
grade. Every test, analysis, redesign, certification, and installation 
will be tested. Our final exam will be pass/fail. As surely as if we 
were in school we must make the full use of every day to make sure we 
pass.
    But just as the new school year brings the bright promise of new 
beginnings and excitement, there is a new excitement is in our lives 
even as the pace of work grows faster. The new beginning for us is 
irrevocably tied up in the ``new culture'' of NASA. This ``new 
culture'' is really the old original NASA culture. Our cultural change 
is to go back to the basics. Solid engineering must back up technical 
and management decisionmaking. No risk decisions based on the hopeful 
optimism of press releases or the forced ignorance of cost constraints. 
Rather, solid decisions made on the basis of hard facts proven by test 
and thorough analysis. Every one of us must summon up the courage to 
deliver the information that--perhaps alone--we know. We must have the 
integrity to deliver the facts whether or not they will be received 
well or with disappointment. From this point on, we will look each 
problem in the face and we will solve each one the old fashioned way: 
by hard work. That is what made our predecessors in this agency 
successful; that is the lesson that ensures our success; that is the 
lesson that we have had to relearn at a bitter price.
    Some ask, ``can we afford to deal with problems in the new (old) 
way? '' Wrong question. Rather ask, ``can we afford to deal with 
problems as we did before? '' No, good as that process was, fast as it 
was, there was too much slipping through the cracks, leaving too many 
opportunities for Murphy to deal us a losing hand. Precision and 
thoroughness have always been required in space flight. Our Apollo 
predecessors knew that. Now, we must take dedication, thoroughness, and 
hard work to a new level, reach deeper, pull harder.
    Most school teams have their cheerleaders to encourage them. The 
whole nation is pulling for us. Every chance encounter with the public 
confirms that the virtually everyone in our country wants us to 
succeed, wants us to fly again. The International Space Station team is 
counting on us, holding the fort day by day until we arrive. It cannot 
be possible that we could let them all down.
    We have the best and the brightest on our team. If this team is not 
dedicated enough to our goal of safe and successful human space flight, 
I don't know who ever was. If this highly trained, well educated, and 
thoroughly experienced team is not sufficient to make Shuttle flights 
safe, who is? If this agency cannot fly in space, who from our Nation 
in our generation will be able to? We made a promise that we would 
carry the torch on, that we would never make the mistake of 
overconfidence again. This year, I am confident we will pass with 
flying colors.
    School is now in session.

    Mr. O'Keefe. Thank you, Mr. Chairman, you're very kind. 
Appreciate that.
    Senator Brownback. Gentlemen, thank you all very much. And 
I want to congratulate you, Administrator O'Keefe, General 
Stafford, really for the work that you guys are doing. And 
while the questions may be, you know, back and forth and seem 
pretty aggressive at times, it's our role to try to do some 
oversight where we try to dig into the issues of the day, and 
we're wrestling with a big set of policy issues, as you are, 
and we want to review your policy decisions.
    Mr. O'Keefe. We'd be disappointed otherwise, Mr. Chairman.
    Senator Brownback. Well, we wouldn't want to disappoint 
you. But I don't want that thought to diminish the thought, as 
well, that we really want to commend you for the work that 
you're doing----
    Mr. O'Keefe. Appreciate that.
    Senator Brownback.--because I see a lot of very positive 
things that are very uplifting for the country. And there are 
going to be struggles, and this is a cutting-edge area that 
you're in, and so there are just--there are going to be 
difficulties with that. And sometimes it's hard to explain to 
the American public, too, when they'd rather have the pothole 
fixed in the street, that, you know, this is important. It is 
important, and we need to be always out there talking about 
that, but we also need to make sure that the policy directions 
are one that the vast majority of the United States public 
supports. It's not a partisan issue. It doesn't cross--it 
doesn't cut Republican or Democrat. This is about Americans 
leading on forward, and I think you're both doing a very 
commendable work in that, and I want to thank you for doing 
that.
    Thank you all for coming. The hearing's adjourned.
    [Whereupon, at 11:34 a.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Good morning. Just over 1 year ago, NASA's Administrator Sean 
O'Keefe was joined by Admiral Harold Gehman in testifying before this 
Committee about the Columbia Accident Investigation Board (CAIB)'s 
findings into the causes of the tragic Space Shuttle Columbia accident. 
Today, we welcome back Administrator O'Keefe to update us on the 
progress NASA is making to implement the CAIB's recommendations and 
return the Space Shuttle program to flight. In addition, we welcome Lt. 
General Thomas Stafford, a distinguished Naval Academy graduate and 
astronaut, to discuss the Return to Flight Task Group's role in 
providing an independent assessment of the agency's actions in 
implementing the CAIB recommendations.
    The CAIB report was one of the most comprehensive accident 
investigation reports in U.S. history. The report laid out a number of 
hard decisions that both NASA and the Nation would have to make to 
ensure a safe Shuttle program. I congratulate Administrator O'Keefe for 
embracing these recommendations, and working to implement them. As we 
examine NASA's activities, we must acknowledge that the return to 
flight of the Space Shuttle is the first goal of the President's 
ambitious new initiative to return Americans to the Moon and explore 
Mars.
    As we will hear today, NASA still has a lot of work to do before 
the Shuttle can fly again. So far, only five of the CAIB's 15 ``Return 
to Flight'' recommendations have been conditionally approved by the 
Return to Flight Task Group. This Committee remains extremely 
interested in NASA's efforts to implement the remaining 10 
recommendations, especially the status of the in-flight emergency 
repair of the Reinforced Carbon-Carbon panels on the leading edge of 
the Shuttle wings, and the program to eliminate the shedding of debris 
from the External Tank.
    I hope that Administrator O'Keefe and General Stafford also will 
address the status of in-flight tile repair; the establishment of a 
truly independent Technical Engineering Authority; NASA's plans to use 
the International Space Station as a ``safe harbor'' in case the Space 
Shuttle is damaged; and the recent damage caused by Hurricane Frances 
at the Kennedy Space Center. As the Administrator knows. I have 
included statutory language in S. 2541, my legislation to reauthorize 
NASA, to ensure that the CAIB's recommendations are implemented.
    One issue of great concern to me is that NASA's old problems 
regarding cost overruns have reappeared. According to briefings that 
NASA has given the Committee, NASA expects $114 million in cost 
overruns for Shuttle operations and sustaining engineering activities 
in Fiscal Year 2004, and $357 million for Fiscal Year 2005. I look 
forward to hearing Administrator O'Keefe's explanation for these 
overruns, and what programs NASA may cut to pay for them. In addition, 
I look forward to hearing his explanation of an additional $405 million 
in projected cost overruns in FY 2005 for Return to Flight activities. 
I also hope that he will inform the Committee at this hearing if NASA 
intends to submit a revised budget request for FY 2005, and describe to 
us what it will look like. If NASA wants to reform its credibility and 
build support for the President's new space exploration initiative, it 
will have to get its budgeting house in order.
    Space travel is inherently risky, and we will never be able to make 
it 100 percent safe. However, we should work to enact the 
recommendations of the CAIB to ensure that the problems that caused the 
Columbia accident do not return. I commend both Administrator O'Keefe 
and General Stafford for their efforts, and look forward to hearing 
their testimony.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           Hon. Sean O'Keefe
    Question 1. Will the damage to the Kennedy Space Center due to 
Hurricane Frances cause further delay in returning the Space Shuttle to 
flight?
    Answer. It is too early to make an accurate assessment. The 
combined effects of the three hurricanes, Charley, Frances, and Ivan, 
will be determined over the next several weeks. It is known that our 
Shuttle Processing workforce has lost many days of productive activity 
due to the safe closure of the Kennedy Space Center (KSC) in response 
to the hurricanes. The impact to orbiter processing milestones and any 
other impacts will be assessed and presented to the Space Flight 
Leadership Council. The results of NASA's assessment and decisions on 
Return to Flight will be shared with the Congress when the results are 
available. Like all milestones toward Return to Flight, if the 
milestone cannot be met, NASA will slip the launch to the next 
available launch window and adjust milestone completion dates 
accordingly.

    Question 2. In a July 30, 2004 letter to me, NASA indicated that in 
addition to the ``Return to Flight'' costs there are increases of $100 
million and $300 million for FY 2004 and FY 2005, respectively, for the 
Shuttle program for program operations and sustaining engineering. In 
briefing material presented to the Committee in July, it was indicated 
that most of these increases are influenced by Columbia Accident 
Investigation Board recommendations and that the actual amounts were 
$114 million and $357 million for FY 2004 and FY 2005, respectively. 
Can you elaborate on these program operations and sustaining 
engineering cost increases and how NASA plans to address them?
    Answer. As a result of the Columbia experience, flight hardware is 
now subjected to greater levels of test, analysis, performance 
monitoring, inspection, repair, and recertification for flight. The 
program's safety controls are being reassessed, as are its industrial 
processes, to ensure nothing is overlooked that might lead to a safety 
of flight issue later on. In the short term, this has led to more 
intensive investigations into flight hardware anomalies not related to 
Return to Flight (RTF), such as the flow liner and flex hoses. In the 
long term, additional resources will be required to sustain the levels 
of analysis, investigation, and integrated risk assessment that were 
found lacking by the Columbia Accident Investigation Board (CAIB), but 
not addressed specifically in every Space Shuttle project. NASA will 
continue to evaluate the effectiveness of these changes to ensure that 
only what is absolutely needed for safe flight is retained for the 
remainder of the Shuttle's service life. As promised, revised estimates 
for both RTF and Shuttle operations and sustaining activities will be 
provided in the fall. However, the full impact of RTF on Shuttle costs 
will not be known until after the first few Shuttle missions are 
completed. The $114 million increase for program operations and 
sustaining engineering will be addressed within the Space Operations 
budget. More detail will be provided in the next Operating Plan update. 
NASA will continue to assess requirements and identify strategies to 
incrementally address the FY 2005 shortfalls. NASA may have to 
reallocate funds from lower priority activities, corporate accounts, or 
other program reserves.

    Question 3. Why is it necessary to identify these costs as separate 
from ``Return to Flight'' costs?
    Answer. It is essential to separate RTF costs from operations and 
sustaining costs for three reasons. First, is to ensure that there is 
no duplication of effort leading to unnecessary expenditures. Second, 
NASA made a commitment to separately track the RTF costs so that they 
might be accurately assessed and budgeted. Third, the technical basis 
for the increases in operations and sustaining activities, while they 
may be in part a result of the Columbia experience, may also be 
influenced by other factors that must be assessed for their long-term 
contribution to Shuttle safety and performance.

    Question 4. Why did NASA not address these cost increases in their 
written statement or oral remarks during the hearing?
    Answer. Administrator O'Keefe's written statement and oral remarks 
to the Committee were focused on NASA's efforts to implement the 
recommendations of the Columbia Accident Investigation Board (CAIB). 
Program operations and sustaining engineering costs have not been 
considered in calculating and describing Return to Flight costs for the 
reasons provided in the answer above.
    However, while program operations and sustaining engineering cost 
estimates were not specifically enumerated, Administrator O'Keefe's 
testimony did acknowledge their significance. The Administrator's 
written testimony indicated that the current cost estimate, provided to 
the Committee on July 30, 2004, included costs incurred by other agency 
activities in support of Return to Flight efforts. A majority of these 
costs is associated with program operations and sustaining engineering. 
In addition, the written testimony made reference to the reassessment 
of the Shuttle program and described program activities that are 
associated with program operations and sustaining engineering. Finally, 
Administrator O'Keefe discussed the issue of NASA's sustaining 
engineering efforts in response to a question on Return to Flight costs 
from Senator Brownback. Although the hearing was primarily focused on 
NASA's RTF efforts, the issue of sustaining engineering and operations 
was addressed. NASA recognizes the importance of these costs, has 
provided information on these costs to the Committee, and is taking 
steps to try to control them while ensuring that our ability to safely 
return to flight is not compromised.

    Question 5. Cost increases of $450 million to $760 million over the 
FY 2005 budget request of $4.3 billion for the Shuttle program have 
been reported by NASA. This would amount to a total of $4.8 billion to 
$5.1 billion for FY 2005 alone. There are many who are questioning 
whether the Shuttle will fly next year and who say that the $5 billion 
would be wasted. How do you respond to these charges?
    Answer. Our current plans have the Space Shuttle flying three 
missions in FY 2005. There are currently no technical issues that would 
prevent NASA from accomplishing this plan, which was confirmed by Gen. 
Stafford during the hearing. Returning to flight is the first step in 
implementing the Vision for Space Exploration, which uses a stepping-
stone approach. It is critical for completing assembly of the 
International Space Station, which is preparing us for future human 
exploration.

    Question 6. When can we expect to see NASA's amendment to the 
budget request and how NASA will pay for these cost increases?
    Answer. At this juncture, NASA does not plan to submit an FY 2005 
budget amendment. NASA intends to pay for the Space Shuttle cost 
increases within the President's FY 2005 budget request. First, the 
program will seek to reduce the shortfalls as technical options are 
closed and cost estimates can be refined. Operations and sustaining 
increases are being reassessed to ensure that only essential activities 
continue beyond RTF. The agency will incrementally evaluate progress to 
reduce the shortfalls, and take action to reallocate its resources to 
support RTF as required. NASA is re-evaluating the Shuttle Service Life 
Extension Program (SLEP) to determine which activities can be canceled 
or deleted based on the program's revised service life. NASA may have 
to reallocate funds from lower priority activities, corporate accounts, 
or other program reserves.

    Question 7. Do you foresee any technical challenges that would 
prevent NASA from meeting the ``Return to Flight'' recommendations of 
the Columbia Accident Investigation Board's report?
    Answer. NASA currently sees no insurmountable challenges to safely 
return the Space Shuttle fleet to flight. There is a significant amount 
of testing to verify analyses and certification processes to complete; 
however, planning for these activities is in place. Unanticipated 
results from testing and launch preparation may impact milestones 
leading to the Return to Flight launch and, if necessary, we will 
revise the milestone date to assure a safe mission.

    Question 8. One issue of critical importance to the Return to 
Flight program is on-orbit repair of the Reinforced Carbon-Carbon 
panels on the leading edge of the Shuttle wing and the tiles on the 
orbiter. As you know, it was a hole in a Reinforced Carbon-Carbon panel 
that caused the destruction of Columbia. What is the status of NASA's 
efforts to develop on-orbit inspection and repair capabilities?
    Answer. Taken together, Thermal Protection System (TPS) inspection 
and repair, including those processes associated with Reinforced 
Carbon-Carbon (RCC) panels, represent one of the most challenging and 
extensive Return to Flight tasks. NASA's near-term TPS risk mitigation 
plan calls for:

  <bullet> Space Shuttle vehicle modifications to eliminate the 
        liberation of critical debris.

  <bullet> Fielding improved ground and vehicle-based cameras.

  <bullet> Developing ship-based radar and airborne sensors for ascent 
        debris tracking.

  <bullet> Adding wing leading edge (WLE) impact sensors for debris 
        detection and damage assessment.

  <bullet> On-orbit TPS surveys using the Shuttle Remote Manipulator 
        System (SRMS) and Space Station.

  <bullet> Remote Manipulator System (SSRMS) cameras.

  <bullet> International Space Station (ISS) crew observations during 
        Shuttle approach and docking.

    Techniques for repairing RCC panels using an Extra-Vehicular 
Activity (EVA) (space walk) are under development. The combination of 
these capabilities will help to ensure a low probability that critical 
damage will be sustained, while increasing the probability any damage 
that does occur can be detected and the consequences mitigated in 
flight. NASA's long-term TPS risk mitigation steps will refine and 
improve all elements of the near-term plan, ensuring an effective 
inspection and repair capability.
    The first step in structuring effective inspections is to establish 
baseline criteria for resolving critical damage. NASA has defined 
preliminary critical damage inspection criteria that form the basis for 
TPS inspection and repair development work. The detailed criteria are 
evolving based on ongoing tests and analyses. Our goal is to define 
damage thresholds for all TPS zones, below which no repair is required 
before entry. These criteria are a function of the damage surface 
dimensions, depth, and entry heating at each location on the vehicle.
    A combination of Shuttle and ISS assets will be capable of imaging 
TPS damage in all areas. The Orbiter Boom Sensor System (OBSS) project 
is currently developing a sensor system that will be flown on the first 
flight and used to inspect the RCC on the WLE and nose cap. The OBSS 
comprises sensors on the end of a boom system that is launched and 
installed on the orbiter's starboard sill. The boom will be used in 
conjunction with the SRMS to inspect WLE RCC and the nose cap prior to 
docking with ISS. After docking, the OBSS will be used to further 
inspect any suspect areas on the orbiter. Additionally, the boom will 
have the capability to support an EVA crewmember, if needed, to support 
inspection activities. Current plans call for the OBSS to carry a Laser 
Dynamic Range Imager (LDRI) sensor to detect damage to the RCC. A 
second sensor system, called the Laser Camera System (LCS), which has a 
higher capability compared to the LDRI, will also be flown as part of 
the OBSS if development can be completed to support Return to Flight. 
Critical damage to the RCC will be detectable on-orbit with the OBSS.
    The main challenges to repairing RCC are maintaining a bond to the 
RCC coating during entry heating and meeting very small edge step 
requirements. The RCC repair project is pursuing two complementary 
repair concepts that together will enable repair of RCC damage of a 
wide range: Plug Repair and Crack Repair. Plug Repair consists of an 
insert intended to repair holes in the WLE with sizes from 0.5 inches 
to 4 inches in diameter. Crack Repair uses a material application 
intended to fill cracks and small holes in the WLE. Both concepts are 
expected to have limitations in terms of damage characteristics, damage 
location, and testing/analysis. Schedules for design, development, 
testing, evaluation, and production of these concepts are in work.
    NASA is continuing research and development on a long-term, more 
flexible RCC repair technique for holes over 4 inches in diameter. This 
effort is still in the concept definition phase and is much less mature 
than the tile repair material study. NASA is evaluating concepts across 
6 NASA centers, 11 contractors, and the United States Air Force 
Research Laboratory. Initial NASA development of a third RCC repair 
technique, rigid overwrap, encountered significant technical 
challenges. As a result, the Space Shuttle program (SSP) recommended 
that the rigid overwrap be deferred in favor of an expanded research 
and development project to develop alternative repair techniques for 
large holes. On June 9, 2004, the Space Flight Leadership Council 
approved the SSP recommendation and directed the SSP to develop plug 
and crack repair to the greatest extent practicable for the March 2005 
launch of STS-114.

    Question 9. A recent Congressional Budget Office report entitled, 
``A Budgetary Analysis of NASA's New Vision for Space Exploration'' 
dated Sept. 2, 2004, indicates that the human lunar mission could slip 
by as much as 1 year for each year that the Shuttle's operations are 
extended. Do you agree with that assessment?
    Answer. Yes. Since the majority of Exploration Systems development 
costs will come from funds freed up by the retirement of the Space 
Shuttle program, it is correct to assume that any delay in the Shuttle 
retirement would affect the human lunar mission.

    Question 10. The Columbia Accident Investigation Board recommended 
that using the Shuttle beyond 2010 would require re-certification of 
the orbiters. It now appears even more challenging for NASA to complete 
assembly of the International Space Station before that time. What are 
your plans for re-certification?
    Answer. NASA fully plans to meet the Vision for Space Exploration's 
plan for retiring the Space Shuttle, by the end of this decade, 
following the completion of its role in assembling the ISS. To prepare 
for the contingency that the Shuttle may need to operate beyond 2010, 
NASA is reassessing the need to recertify Space Shuttle systems, 
subsystems, or components in line with the recommendations of the 
Columbia Accident Investigation Board.

    Question 11. Are you developing any cost estimates of what it would 
take to re-certify the orbiters?
    Answer. NASA fully plans to meet the Vision for Space Exploration's 
plan for retiring the Space Shuttle, by the end of this decade, 
following the completion of its role in assembling the ISS. NASA has 
not yet developed cost estimates for recertification.

    Question 12. General Stafford states in his written statement that 
a universal concern for the Return to Flight Task Group is the 
personnel requirements to meet the Columbia Accident Investigation 
Board recommendations. Can you comment on NASA's use of the NASA 
Flexibility Act to aid the agency in addressing its personnel problems?
    Answer. NASA civil servant staffing in support of Return to Flight 
was essentially completed by the time the NASA Flexibility Act of 2004 
became available for the agency's use. However, the new flexibilities 
provided by this Act will benefit the Program's ability to manage human 
capital issues in the future. For example, NASA plans to use the new 
retention and recruitment tools to ensure that critical skills and 
expertise of the current workforce are not lost.

    Question 13. Several years ago, a number of management reports 
identified NASA's cost estimating capabilities to be lacking. What has 
NASA done to improve upon this critical skill?
    Answer. GAO recently completed a review of NASA's cost estimating 
capabilities. NASA is in the process of responding to and implementing 
recommendations from this report. They include:

        1. Developing an integrated plan that, at a minimum, includes: 
        specific actions for ensuring that guidance is established on 
        re-baselining, and that re-baselining is consistently applied 
        to provide accountability among programs; true earned value 
        management is used as an organizational management tool to 
        bring cost to the forefront in NASA's management decision-
        making process; acquisition and earned value management 
        policies and procedures are enforced; and, staff and support 
        for cost-estimating and earned value analyses are effectively 
        used.

        2. Establishing a NASA Cost Estimating Review Board (CERB) 
        similar to the Department of Defense's Cost Analysis 
        Improvement Group (CAIG) to ensure a disciplined cost 
        estimating review process for future NASA acquisitions. On July 
        7, 2004, the NASA Headquarters Cost Analysis Division received 
        the go-ahead from the Agency Program Management Council (PMC) 
        for full implementation of its Continuous Cost-Risk Management 
        (CCRM) initiative that integrates cost estimating and earned 
        value with risk management and feedback. This will provide 
        project managers with the highest quality cost management 
        information to ensure successful project cost management.

        3. Establishing a standard framework for developing life-cycle 
        cost estimates. The framework will require each program or 
        project to base its cost estimates on a full life-cycle for the 
        program--including all direct and indirect costs for operations 
        and maintenance and disposal as well as planning and 
        procurement--and on a work breakdown structure that encompass 
        both in-house and contractor efforts; development of the Cost 
        Analysis Data Requirement (CADRe) that includes not only an 
        equivalent to the Department of Defense's CADR but also 
        requires the NASA project manager to additionally provide an 
        annually updated set of key cost-driving technical parameters 
        that can be used to produce a Life-Cycle Cost Estimate (LCCE) 
        along with the requirement for an annual LCCE; prepare an 
        independent government estimate at each milestone of the 
        program; and, conduct a cost-risk assessment that identifies 
        the level of uncertainty inherent in the estimate.

    Question 14. The projected cost increases of $450 to $760 million 
over the FY 2005 budget are related specifically to Return to Flight 
activities and implementation of Columbia Accident Investigation Board 
recommendations, and do not include the costs associated with Shuttle 
mission execution and transition activities that will begin in the next 
few years.
    Answer. As a point of clarification, the $450 to $760 million 
estimated cost increase for FY 2005 does include the estimated $357 
million increase associated with program operations and sustaining 
engineering.

    Question 15. What uncertainties--both within and outside of NASA's 
control--must be resolved before the agency can provide Congress with 
an accurate cost estimate of Shuttle program activities through its 
retirement, including RTF, CAIB, and mission execution and transition 
activities and workforce needs? When does NASA anticipate including 
costs of Shuttle mission execution, transition activities, and 
associated workforce needs in a budget request?
    Answer. While NASA is moving rapidly to close on the technical 
responses to the CAIB recommendations, the total impact of Columbia on 
the agency cannot be fully assessed until after the first few Space 
Shuttle missions are flown. Only then can NASA assess the effectiveness 
of its technical solutions and determine the level of effort needed in 
all areas to assure safe flight through the end of the program. In 
addition, until the Space Station final configuration and assembly 
sequence is agreed upon, the number of Shuttle flights required will 
not be known. In practical terms, the soonest NASA might be able to 
submit a definitive budget through the program's retirement would be in 
its FY 2007 budget request, since the FY 2006 request will be submitted 
before the first RTF mission.

    Question 16. Given the uncertainties surrounding Shuttle activities 
and NASA's issues related to cost estimating in the past, what 
assurance can NASA provide Congress that the out-year cost estimates 
related to the program are well founded?
    Answer. Over the last 2 years, NASA has greatly enhanced its cost 
estimating capabilities. The issue with the current Shuttle cost 
estimates is not a lack of resources or estimating acumen, but the 
maturity of the technical solutions to the RTF challenges. It is only 
in the last part of FY 2004 that NASA started to close on its RTF 
solutions and to begin incorporating them into flight hardware 
production, operations procedures, and revised, integrated mission risk 
assessments. As will always be the case, sound cost estimates must 
follow sound technical content. Accordingly, as NASA completes the work 
delineated in its RTF plan and once actual flight experience is gained, 
the estimates for all years will be reassessed and revised.

    Question 17. What activities would you characterize as high risk 
for the Shuttle program in that, they could have a significant impact 
on Shuttle costs in the future?
    Answer. As NASA closes on its technical solutions to the CAIB 
recommendations; the issues that have the greatest impact on cost in 
the next year are thermal protection system inspection and repair, and 
the effectiveness of the debris mitigation actions on the external 
tank. For the long term, workforce increases to support program-wide 
integrated engineering and mission assurance efforts are projected to 
require greater resources than in the years prior to Columbia and are 
the focus of ongoing evaluation as the agency approaches its first RTF 
missions.

    Question 18. According to documents provided to the Congress, NASA 
anticipates using funds originally intended for the Shuttle Life 
Extension Program (SLEP) to offset a portion of the budget shortfall in 
FY 2005. Has NASA performed a risk assessment to determine the impact 
of not implementing or postponing needed upgrades to the Shuttle? If 
not, why not?
    Answer. Decisions to continue with a long-term complex vehicle 
modification in the limited available time for Space Shuttle operations 
must be viewed in the context of relative risk. Major modification of a 
developmental vehicle late in its mission life requires additional 
attention after the lessons learned from the CAIB report. Decision 
packages related to the two remaining primary vehicle upgrade 
modifications (Cockpit Avionics Upgrade and Advanced Health Monitoring 
Phase II) are currently in coordination. These packages are based on 
the diligent evaluation of a wide range of technical issues and include 
inputs from diverse program perspectives. They specifically address the 
relative risk of continuing the project against the remaining potential 
for benefits.

    Question 19. What approved SLEP upgrades does this transfer of 
funds affect and how did NASA make the determination that these 
upgrades could be delayed or abandoned?
    Answer. The SLEP funding profile is based on a ``needs'' evaluation 
of what is necessary to safely sustain Shuttle operations through ISS 
assembly complete. Decisions on the status of future upgrades are based 
on the processes defined above.

    Question 20. Was a sensitivity analysis performed on how risks 
might rise (from such delay or abandonment of specific SLEP upgrades) 
if the Shuttle was retired later than the expected 2010-2011 time-
frame?
    Answer. NASA fully plans to meet the Vision for Space Exploration's 
plan for retiring the Space Shuttle, by the end of this decade, 
following the completion of its role in assembling the ISS. Because 
upgrades are primarily implemented during orbiter major modification 
periods, a delayed Space Shuttle retirement date due to manifest 
changes would essentially delay the implementation of the upgrades as 
well, resulting in very little difference in risk.

    Question 21. Based on NASA's proposed strategy, it appears that 
NASA is funding near-term RTF activities at the expense of long-term 
safety and operations of the Shuttle. Is this the case?
    Answer. No. The decisions on vehicle modification were made based 
on the relative risk of continuing the upgrade in terms of integrated 
program and technical risk against implementation late in the Shuttle's 
mission life. Resource constraints, while not a decision driver, were 
an area of consideration.

    Question 22. RTF activities have resulted in a rapid increase in 
activity, including the need for an increase in the Shuttle workforce 
to support such activities. Once RTF has been accomplished, will this 
level of workforce be maintained to ensure that the critical skills 
necessary to support mission execution and transitioning activities are 
available? If the workforce is reduced following successful RTF, how 
will NASA ensure that critical skills will be available until the 
Shuttle fleet is retired? Has NASA examined the long-term impacts of 
this increase and then possible decrease in workforce numbers in light 
of the planned retirement of the Shuttle at the end of the decade?
    Answer. NASA is assessing the post-RTF workforce requirements to 
determine long-term (not just RTF) impacts to operations in complying 
with CAIB recommendations while balancing the transition activities 
associated with Space Shuttle retirement. Maintaining the critical 
skills related to executing the mission and providing the appropriate 
workforce to support transition activities is a key part of this 
effort. NASA has benchmarked similar programs for transition that have 
dealt with a retirement of assets. The lessons learned from these 
reviews are being incorporated into the implementation plan being 
developed by the Space Shuttle program. NASA has also engaged the 
National Academy of Public Administration (NAPA) to assess the adequacy 
of this implementation plan as it relates to the transitioning of the 
workforce. Furthermore, the Government Accountability Office (GAO) was 
requested by Senators McCain and Hollings to review NASA's plans for 
the workforce with the pending Shuttle retirement. NASA believes the 
efforts of the Program to develop a post-RTF mission execution and 
transition plan, combined with the assessment by NAPA and review by 
GAO, will ensure adequate critical skills retention through the end of 
mission execution and transition activities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                 Lieutenant General Thomas P. Stafford
    Question 1. Do you believe NASA will be able to return the Shuttle 
to flight next spring? What analysis have you done to support your 
position?
    Answer. NASA has laid out a milestone-driven schedule, that if met, 
will lead to a launch in the March/April time-frame. As I indicated in 
my written testimony, the Task Group's Management, Technical, and 
Operations Panels have conducted extensive fact-finding activities at 
all levels within the agency and its contractor team. This has included 
participating in teleconferences, reviewing documents, conducting 
interviews, receiving formal and informal briefings, and observing 
tests, simulations, and program reviews. Based on assessment of their 
fact-finding activities, task group believes that NASA continues to 
make significant progress in meeting its milestones. However, 
challenging work lies ahead for NASA, the impacts of Hurricanes Francis 
and Ivan are not yet known, and there is little time available in the 
schedule for additional unplanned work. Therefore, while it is still 
possible that NASA could be in a position to launch this spring, I 
would judge the agency's plan to launch in the current March/April 
planning window as optimistic and there is a likelihood that some 
adjustment may be necessary.

    Question 2. Your written statement indicates that the Task group 
has conditionally approved 5 of the 15 ``Return To Flight'' 
recommendations. You have also identified in your written statement the 
actions that are necessary to completely close out these items. Do you 
consider these remaining action items for the conditionally approved 
recommendations to be of a concern for the Return to Flight date?
    Answer. NASA has planned or is in the process of taking the actions 
identified as conditions for closure of the five ``conditionally 
closed'' recommendations. The Task Group has no technical concerns in 
this area and does not expect implementation of these conditions to 
impact the Return to Flight date.

    Question 2a. Is it accurate to say that none of the 15 ``Return To 
Flight'' recommendations have been completely closed out more than 1 
year after the final report from the Columbia Accident Investigation 
Board?
    Answer. NASA has made significant progress toward meeting the 
intent of the CAIB in all 15 recommendations: five have been 
conditionally closed. However, none have been fully closed to date.

    Question 3. Have you reviewed the cost estimates for the Return to 
Flight activities in FY 2005 and do you agree with them? What analysis 
have you done to support your position?
    Answer. Although the Task Group is charged with assessing the 
consistency of NASA's flight schedule with available resources, an 
evaluation of the cost estimates for Return to Flight is outside the 
scope of the charter for the Return to Flight Task Group.

    Question 4. Can you further discuss NASA's technical challenges for 
providing on-orbit inspection and repair capabilities for the Shuttle? 
Is the ``safe haven'' approach you discussed in your written statement 
a viable alternative?
    Answer. The Task Group is not aware of any technical challenges to 
on-orbit inspection based on the current requirements. There is 
significant forward work to deliver and validate this inspection 
capability. Several technical challenges remain for both RCC and tile 
repair techniques, materials and overall capabilities. NASA is working 
very hard to address these concerns.
    Safe haven is an emergency contingency that will only be considered 
after all other alternatives have been exhausted. As such, NASA has 
identified the systems and consumables required on ISS to provide an 
engineering estimate that provides expected capability at the time of 
Shuttle launch. This analysis is updated continuously to reflect 
current system status and changes to consumables that might affect 
duration. In addition, the necessary crew rescue vehicle mission has 
been established.

    Question 5. You noted in your written statement that personnel 
requirements of the Return to Flight program is a universal concern for 
the Task Group. Do the required staff talents exist within the agency 
and its contractors? How much of a hindrance is this toward 
successfully returning the Shuttle to flight?
    Answer. In responding to the recommendations of the CAIB, NASA is 
establishing various new organizations including the NASA Engineering 
and Safety Center, the Independent Technical Authority, and the Space 
Shuttle Systems Engineering and Integration Office, and strengthening 
others. The Task Group's expressed concern was that these organizations 
will require personnel with special qualifications and experience; that 
these personnel would of necessity be drawn largely from a limited pool 
within NASA and its contractor team; and that this could put a strain 
on resources available to perform other important Space Shuttle Return 
to Flight activities. NASA is still in the process of establishing and 
staffing some of these new organizations. The Task Group has not 
identified any deficiencies that will impact Return to Flight. The Task 
Group will need to continue to monitor this concern.

    Question 6. In its January report, the Return-To-Flight Task Group 
expressed concern that NASA ``has not been timely in some of their 
responses to Task Group requests for information.'' Have these concerns 
been addressed, and is the Return To Flight Task Group getting the 
information in a timely manner?
    Answer. NASA has worked closely with the Task Group to refine its 
process for and increase its focus on responding to the Task Group's 
requests for information. Overall, the new process has resulted in a 
more timely response to the Task Groups requests.

                                  <all>

</pre></body></html>
